<html>
<title> - MILLENNIAL VOICES ON ADVANCING THE AMERICAN DREAM</title>
<body><pre>[Senate Hearing 114-176]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-176

           MILLENNIAL VOICES ON ADVANCING THE AMERICAN DREAM

=======================================================================

                                HEARING

                               BEFORE THE

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2015

                               __________

          Printed for the use of the Joint Economic Committee
          
          
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
97-901                         WASHINGTON : 2016                        
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6502150a25061016110d0009154b060a084b">[email&#160;protected]</a>  
                       
                        
                        
                        
                        
                        
                        
                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Daniel Coats, Indiana, Chairman      Kevin Brady, Texas, Vice Chairman
Mike Lee, Utah                       Justin Amash, Michigan
Tom Cotton, Arkansas                 Erik Paulsen, Minnesota
Ben Sasse, Nebraska                  Richard L. Hanna, New York
Ted Cruz, Texas                      David Schweikert, Arizona
Bill Cassidy, M.D., Louisiana        Glenn Grothman, Wisconsin
Amy Klobuchar, Minnesota             Carolyn B. Maloney, New York, 
Robert P. Casey, Jr., Pennsylvania       Ranking
Martin Heinrich, New Mexico          John Delaney, Maryland
Gary C. Peters, Michigan             Alma S. Adams, Ph.D., North 
                                         Carolina
                                     Donald S. Beyer, Jr., Virginia

                  Viraj M. Mirani, Executive Director
                 Harry Gural, Democratic Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Daniel Coats, Chairman, a U.S. Senator from Indiana.........     1
Hon. Carolyn B. Maloney, Ranking Member, a U.S. Representative 
  from New York..................................................     2

                               Witnesses

Hon. Elise Stefanik, a U.S. Representative from New York.........     5
Mr. Jared Meyer, Fellow, Manhattan Institute for Policy Research, 
  New York, NY...................................................     7
Ms. Jennifer Mishory, Executive Director, Young Invincibles, 
  Washington, DC.................................................     9

                       Submissions for the Record

Prepared statement of Hon. Daniel Coats, Chairman, a U.S. Senator 
  from Indiana...................................................    30
    Report titled ``Millennials' Slow Start Down the Road of 
      LIFE''.....................................................    31
Prepared statement of Hon. Amy Klobuchar, a U.S. Senator from 
  Minnesota......................................................    36
Prepared statement of Hon. Carolyn B. Maloney, Ranking Member, a 
  U.S. Representative from New York..............................    36
Prepared statement of Hon. Elise Stefanik, a U.S. Representative 
  from New York..................................................    38
Prepared statement of Mr. Jared Meyer, Fellow, Manhattan 
  Institute for Policy Research, New York, NY....................    41
Prepared statement of Ms. Jennifer Mishory, Executive Director, 
  Young Invincibles, Washington, DC..............................    51
Chart titled ``Marginal Tax Rates Must Nearly Double to Fund 
  Entitlement Spending'' submitted by Representative David 
  Schweikert.....................................................    61
Questions for the record for Mr. Jared Meyer submitted by 
  Congresswoman Carolyn B. Maloney, Ranking Member, and responses    62
Questions for the record for Ms. Jennifer Mishory submitted by 
  Congresswoman Carolyn B. Maloney, Ranking Member, and responses    63
Questions for the record for Mr. Jared Meyer submitted by Senator 
  Amy Klobuchar and responses....................................    66
Questions for the record for Ms. Jennifer Mishory submitted by 
  Senator Amy Klobuchar and responses............................    66

 
           MILLENNIAL VOICES ON ADVANCING THE AMERICAN DREAM

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2015

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The Committee met, pursuant to call, 2:06 p.m. in Room 106 
of the Dirksen Senate Office Building, the Honorable Daniel 
Coats, Chairman, presiding.
    Representatives present: Paulsen, Hanna, Schweikert, 
Maloney, and Beyer.
    Senators present: Coats, Cassidy, Klobuchar, and Heinrich.
    Staff present: David Brauer, Connie Foster, Harry Gural, 
Colleen Healy, Christina King, Kristine Michalson, Viraj 
Mirani, Brian Neale, Thomas Nicholas, Leslie Phillips, 
Stephanie Salomon, Aaron Smith, and Sue Sweet.

   OPENING STATEMENT OF HON. DANIEL COATS, CHAIRMAN, A U.S. 
                      SENATOR FROM INDIANA

    Chairman Coats. The Committee will come to order. We 
appreciate our witnesses here today to talk about Millennials. 
Obviously I am not totally qualified to totally relate to 
Millennials. One of my staff members who is in my age bracket 
said, ``You should have me on the witness table because I've 
got two Millennials living in my house, and I can't get them 
launched.''
    [Laughter.]
    So it is going to be an interesting hearing that we have 
today, and it is an important one because we are dealing with a 
generation of people who are very important to the future of 
this country, and there are issues that we need to talk about.
    I am going to give a very brief opening statement. Our 
first witness, Congresswoman Stefanik has to get back to the 
House, and so we want to get to her quickly so she can do that, 
and then also hear from our other witnesses.
    The Joint Economic Committee has produced a piece here, 
thanks to some very good staff work, titled ``Millennials' Slow 
Start Down The Road of Life.'' It talks about the challenges 
that this generation has in terms of education, debt to achieve 
that education, unemployment and not finding jobs that match 
the talents and skills learned in college, stagnant and less 
promise of career path growth in the job market, delay of 
marriage, housing issues not a priority but delayed by debt, 
and job uncertainty, and looming spending and rising debt that 
have put Millennials' futures at risk.
    All of these are issues, and there are others that we will 
be discussing today. I am going to ask unanimous consent that 
my full statement be entered into the record, and also if 
Senator Klobuchar does not arrive, she has asked, in a timely 
basis, she has asked also for her statement to be put in the 
record.
    I will turn now to our Ranking Member, Congresswoman 
Maloney, for her opening statement, and then we will move to 
introduce our witnesses and start the hearing.
    [The prepared statement of Chairman Coats appears in the 
Submissions for the Record on page 30.]
    [The report titled ``Millennials' Slow Start Down the Road 
of LIFE'' appears in the Submissions for the Record on page 
31.]
    [The prepared statement of Senator Klobuchar appears in the 
Submissions for the Record on page 36.]

OPENING STATEMENT OF HON. CAROLYN B. MALONEY, RANKING MEMBER, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Representative Maloney. Thank you so much, Chairman Coats, 
for calling today's hearing. Millennials are central to our 
Nation's economic, social, and cultural vitality. They are the 
largest generation, bigger than the Baby Boomers, approximately 
88 million people.
    They are also the most educated and racially diverse 
generation in United States history. But Millennials face 
significant challenges in many ways far greater than those 
experienced by the Boomers.
    Millennials generally have higher rates of unemployment, 
lower incomes, and more student debt. Many Millennials have had 
no choice but to delay getting married, buying a home, and 
saving for retirement.
    These challenges were greatly magnified by the Bush-Era 
Great Recession. The Recession was an economic catastrophe that 
deeply hurt many Millennials and will have a lasting impact on 
them.
    We have come a long ways since the darkest days of the 
Recession. The economy continues to recover. The overall 
unemployment rate has been cut in half, and businesses have 
added jobs for 68 consecutive months, the longest streak on 
record.
    Millennials have benefited substantially from this 
recovery. Unemployment is down and wages are beginning to move 
up. This year's college graduates will likely enter the best 
job market in years. Yet significant problems remain.
    It is useful to compare what Millennials are experiencing 
today to what the Baby Boomers experienced a generation ago. 
Many Baby Boomers with only a high school education could 
afford to buy a house, raise a family, save for retirement, and 
pass something on to their children. But most Millennials will 
need a college degree to come close to matching that success 
and will struggle longer to achieve it.
    The question is how to pay for it. The real median income 
for those households headed by a 25- to 34-year-old has fallen 
by nearly 10 percent in the past 15 years. So more young people 
have been forced to borrow money to go to college. The share of 
households headed by someone under age 35 with student loan 
debt has more than doubled since 1989, and they borrow more 
money, too, with median debt tripling during this same period.
    Some Millennials will end up paying back loans well into 
their 30s, 40s, and even their 50s. And because so many 
Millennials leave college with student debt, they do not have 
the money for a down payment for a first home. Home ownership 
for those under 35 years old has declined and is now about 2 
percentage points below its average in 1994.
    Young people are even returning home to live with their 
parents. The Pew Foundation finds that a larger share of women 
18 to 34 years old are living at home, 36 percent, than at any 
time since 1940 when those statistics were first collected, and 
the share of men is even higher.
    I hope we can use the hearing today to not only understand 
the scope of these problems, but also to focus on solutions.
    For guidance, let's look at the first rule of medicine: Do 
no harm. Let's start with education. Should we force students 
to rely on private student loans that are more costly and come 
with fewer consumer protections?
    No. The truth is that Millennials cannot afford it. What 
about government spending? Should we slash spending so we have 
a smaller government that provides fewer services?
    Fifty-three percent of Millennials oppose that approach. 
Let's turn to health care. Thanks to the Affordable Care Act, 
uninsured rates for younger Millennials have been cut in half, 
as those under the age of 26 are now able to stay on their 
parents plans as well as utilize exchanges across the country.
    Should we cave to efforts to repeal the health care law? Of 
course not. Millennials make up approximately 7 in 10 workers 
who earn at or below the minimum wage. Should we allow the 
right wing to block efforts to increase the minimum wage? 
Clearly, no.
    Should we privatize Social Security? No. Instead, let's 
come together to pass modest measures to make sure that it will 
be strong when Millennials need it.
    Should we roll back consumer financial protections that 
help protect them from predatory practices? Some call this 
cutting red tape. I would call it dangerous.
    But it is not enough to block destructive actions that hurt 
Millennials. We must focus on targeted actions that will help 
them. And I will mention just a few.
    We need to make college more affordable by strengthening 
federal and state support for higher education, making tuition 
free at community colleges, and increasing investments in Pell 
Grants.
    We need family-friendly policies so Millennial parents can 
make a living and raise their children. Let's repair our 
Nation's roads and bridges to lay the groundwork for a stronger 
economy.
    If we don't do it now, Millennials will pay a very steep 
price down the road. And let's not ignore what will perhaps be 
the greatest challenge of our time: climate change.
    We must fight those who claim that climate change is a 
hoax. Failing to address climate change would leave an 
unimaginable burden on Millennials and future generations.
    The challenges facing Millennials are real, but the 
solutions exist and it is our job to help chart the course 
forward. Let me close by saying that it is wonderful to have on 
our panel a colleague from the House, and a Member of the New 
York delegation. So, welcome, Elise, and I look forward to your 
perspective as well as the testimony of the other panelists.
    Thank you, and I yield back.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 36.]
    Chairman Coats. Senator Klobuchar, I have already put your 
statement into the record, but I would love to give you some 
time to summarize what you had to say.
    Senator Klobuchar. As the Ranking Senator, thank you. I am 
going to have to leave early, but I did also want to thank Ms. 
Mishory for being here. She is going to be in Minnesota in mid-
November, which we know is the best time to visit--right, 
Congressman Paulsen?
    [Laughter.]
    And then, Representative Stefanik, I know you used to work 
for Tim Pawlenty, our former Governor, so we welcome you any 
time.
    This issue of the Millennials, I am so glad that you are 
having a hearing on this because we know that so many different 
issues confront Millennials. And I have heard Congresswoman 
Maloney go through a number of very important issues. I think 
the savings issue is going to be important. As you have more 
people that are changing jobs in the GIG economy, which when I 
first heard about it I though it meant like gigs, as in 
computers, and then I realized you mean a lot of jobs. And with 
so many jobs with Millennials, that is going to be a piece of 
it. And, as well we know, the student loan costs, paid sick 
leave, and so many economic challenges. But there's also so 
many opportunities with the economy having stabilized and 
improving.
    So with that, I am going to let you go on with the hearing 
here. Senator Blunt and I had agreed to meet with the 
Ambassador from the Congo on some important adoption issues, 
but I look forward to hearing what happens. Thank you.
    Chairman Coats. Senator, thank you.
    I am going to do something a little bit different here. I 
am going to introduce Mr. Meyer, and then introduce Ms. 
Mishory, and then have Congressman Hanna introduce you. And the 
last shall be first. The last to be introduced will be the 
first witness, given your time constraints.
    Mr. Jared Meyer is a Fellow of the Manhattan Institute. His 
research includes micro economic theory--don't ask me what that 
is--and the economic effects of government regulations. Mr. 
Meyer is a regular contributor to several national media 
outlets, is co-author with Diana Furchtgott-Roth of 
``Disinherited: How Washington Is Betraying America's Young,'' 
published just this year. He will have a tape--no, not a table 
outside where----
    [Laughter.]
    He can sign the book, but you can go to Barnes & Noble, or 
Books-a-Million and get that book.
    Before joining the Manhattan Institute, he was a research 
assistant for political philosopher Douglas Rasmussen. He holds 
a Bachelor of Science in Finance and a minor in Philosophy of 
Law from St. John's University. We welcome you, Mr. Meyer.
    And Ms. Jennifer Mishory, Executive Director and Founding 
staff member of Young Invincibles. That's what some of my kids 
say they are.
    [Laughter.]
    She is a member of the Consumer Advisory Board of the 
Consumer Financial Protection Bureau. She previously served as 
consumer representative for the National Association of 
Insurance Commissioners, and graduated with honors from UCLA. 
She received her Law Degree from Georgetown University Law 
Center, and is admitted to the California Bar.
    I would like to turn now to Representative Hanna to 
introduce our first witness.
    Representative Hanna. Thank you, Chairman.
    I am pleased today to introduce my friend and colleague, 
Representative Elise Stefanik who serves the 21st District of 
New York, just north of me. Representative Stefanik graduated 
from Harvard University with honors as the first member of her 
immediate family to graduate from college.
    She is not only the youngest Member of Congress serving 
today, but she is also the youngest woman ever to be elected to 
this institution.
    She is a member of both the Armed Services Committee and 
the Committee on Educational Workforce. She also serves as a 
freshman representative to the Policy Committee, and heads the 
Millennial Task Force.
    Representative Stefanik was formerly Director of 
Communications for the Foreign Policy Initiative, and worked in 
the White House as part of George W. Bush's Domestic Policy 
Council staff.
    Prior to her election, Representative Stefanik also worked 
at her family's small business, Premium Plywood Products, 
founded over 20 years ago in Upstate New York. Welcome.

 STATEMENT OF HON. ELISE STEFANIK, A U.S. REPRESENTATIVE FROM 
                            NEW YORK

    Representative Stefanik. Thank you, Congressman Hanna. Am I 
good to go? Great.
    Good afternoon, Chairman Coats, Ranking Member Maloney, and 
my Distinguished Colleagues on this Committee.
    It is truly an honor to participate in today's hearing and 
have the opportunity to discuss issues that are not only 
important to my constituents, but also to over 80 million other 
Millennial Americans throughout our country.
    It is critical that we as legislators recognize the 
opportunity Congress has to support and empower Millennials, 
the current generation between the ages of 18 and 33 years old.
    I look forward to sharing my unique perspective both as a 
Millennial and as a Millennial Member of Congress.
    Over the last year, I have chaired the House Republican 
Millennial Task Force. This Task Force aims to identify and 
tackle the issues facing Millennials, while also embracing the 
unique and innovative ways these Americans face challenges.
    I have chaired three hearings to date to address these 
goals, and trust that what was learned will prove helpful to 
this Committee.
    In June, the Task Force invited several leaders in 
Millennial research and polling, including Mr. Meyer who is 
here with us today. The hearing explored and delved into the 
demographics of Millennials and identified key issues of 
concern.
    We learned that Millennials make up one in three U.S. 
workers, and have now overtaken Generation Xers as the largest 
generation in our Nation's workforce. Additionally, Millennials 
are the most educated generation in our history, while also 
carrying student loan debt far greater than our parents and 
grandparents.
    We also learned that a majority of Millennials do not 
believe they will be able to attain the standard of living or 
the quality of life enjoyed by their parents.
    Our witnesses explained that this generation faces 
entrenched challenges to innovation and advancement that are 
the result of a Federal Government that has not recognized and 
responded to a changing America.
    In August, I held a field hearing in my District where I 
spoke to Millennials from diverse fields, ranging from 
advertising to agriculture. These young Americans from New 
York's 21st District shared the hopes they have as they start 
their professional careers, as well as the challenges they face 
in today's economy.
    Ethan Allen, a Millennial farmer who I represent, mentioned 
the regulatory burdens young farmers face as they look into 
entering the agricultural field. Other Millennials who 
participated on the panel spoke of the crippling student debt 
that prevents them from starting new businesses, and also the 
crushing costs of health care that make it a challenge to save 
for retirement.
    However, what truly inspired and impressed me was the 
optimism, and this new way of looking at the world which this 
Millennial generation exudes. These are young Americans that 
strive for fulfilling jobs and care about their local 
communities.
    They do not shy away from challenges, and they want to 
participate in society, their communities, and in local 
government. However, often they feel held back by archaic 
processes and over-regulation.
    As leaders in Congress, we can help with these challenges, 
and we can support and help grow our empowerment economy to 
allow young people to bring about economic change for 
themselves.
    Just this past Monday I chaired the third Task Force 
hearing here. We explored how companies are attracting and 
retaining Millennials in their workforce, as well as how 
today's technology is providing flexible opportunities for 
Millennials to earn money and advance their careers.
    I heard from Google and PricewaterhouseCoopers who shared 
their thoughts on the empowerment economy. Mazie Clark, a 
Millennial from Google, pointed out how flexibility and 
competitive benefits are enjoyable, but at the end of the day 
it is about empowering workers to succeed and live the lives 
they desire.
    Terri McClements from PricewaterhouseCoopers discussed the 
real-time feedback system at their company that instills open 
communication and a sense of ownership among employees, 80 
percent of whom are Millennials.
    Another witness at the hearing was Uber, which is a great 
example of the empowerment economy. This company allows for 
flexibility and allows, for example, a full-time student to 
earn a living on their own schedule, or even gives a stay-at-
home mom the opportunity to set her own hours and receive a 
paycheck to benefit her young family.
    By allowing Americans the flexibility to work the hours 
that fit within their busy daily schedule, companies such as 
Uber are creating the needed opportunities which are 
desperately desired by Millennials.
    Although these Task Force hearings have primarily focused 
on the economics of the Millennial generation, it is critical 
that we address the student loan debt crisis. I share the 
concerns of this Committee and many of my House and Senate 
colleagues.
    When the most educated generation in our Nation's history 
cannot start businesses, purchase homes, or save for retirement 
because they are held back by decades of loan payments, we must 
make it a priority to discuss innovative ways to address this 
solution.
    I am thankful to have been invited to speak to this 
Committee today, and I look forward to an ongoing and 
productive conversation on how we as leaders in Congress can 
best serve the 80 million Millennials across this Great Nation 
who will be our future leaders.
    Thank you.
    [The prepared statement of Representative Stefanik appears 
in the Submissions for the Record on page 38.]
    Chairman Coats. Well thank you very much. We appreciate 
that. We hope you will be able to stay to take some questions 
from us. We understand when you'll need to leave.
    Mr. Meyer.

 STATEMENT OF MR. JARED MEYER, FELLOW, MANHATTAN INSTITUTE FOR 
                 POLICY RESEARCH, NEW YORK, NY

    Mr. Meyer. Chairman Coats, Ranking Member Maloney, and 
other Members of the Joint Economic Committee, I want to thank 
you for giving me the opportunity to give testimony on how to 
embrace Millennials' vision of the American Dream.
    I am a Fellow at the Manhattan Institute for Policy 
Research, and the co-author of the book ``Disinherited: How 
Washington Is Betraying America's Young,'' but don't worry it 
isn't any of you who are doing the betraying.
    Over the past four months, I have traveled across the 
country and I have spoken with Millennials about the economic 
challenges they are facing, and also their vision for the 
future.
    Millennials have been called the most entrepreneurial 
generation. While this may be true based on their desires to 
start businesses and their near-universal respect for 
entrepreneurs, few young Americans have followed through on 
their entrepreneurial dreams.
    A Bentley University survey of Millennials found that 66 
percent of the respondents have a desire to start their own 
businesses, and Deloitte found that about 70 percent of 
Millennials envision working independently at some point in 
their careers.
    Yet, only 3.6 percent of businesses are at least partially 
owned by someone under the age of 30. This is the lowest 
proportion since the Federal Reserve began collecting data 
nearly a quarter century ago.
    Additionally, the Brookings Institution found that business 
startup rates are much lower now than they were in the 1980s. 
But these declines should not be surprising. Government policy, 
particularly in regards to regulation, is stuck in the 20th 
Century and continues to hold back economic opportunity.
    The U.S. Code of Federal Regulations is over 175,000 pages 
long. The number of pages has steadily accumulated since the 
1970s, but five of the six all-time high counts have occurred 
under President Obama's tenure. And in these pages, there are 
over one million commandments from Washington in the form of 
restrictive words such as ``must,'' ``cannot,'' or ``shall.''
    How can we expect business owners to comprehend which of 
these million restrictions apply to their businesses? It is 
simply a waste of their time.
    Financial regulations such as the Security and Exchange 
Commission's restrictions on equity-based investment can 
severely limit a startup's ability to raise capital.
    The Jobs Act of 2012, a law that President Obama touted as 
one of the ways he has aided Millennials, included a provision 
to allow for equity-based crowdfunding. Debt- or rewards-based 
crowdfunding were already permitted under existing law, but the 
SEC has still not implemented the equity crowdfunding rules, 
leaving entrepreneurs delaying their projects.
    And even if entrepreneurs are able to fund their 
businesses, labor regulations can prevent their projects from 
getting off the ground. One example of this is occupational 
licensing, which requires people to spend a substantial amount 
of time and money to gain government's permission to work.
    One out of three American workers now needs to gain 
government licensing or certification in order to earn a 
living, and this is up from 1 in 20 in the 1950s. It takes an 
average of 70 times as long to become a government-approved 
interior designer as it does to become a government-approved 
emergency medical technician.
    Additionally, the pass rate for the Louisiana florist exam, 
which is for a florist certification, is only half as high as 
the pass rate for the Louisiana Bar Exam.
    These burdens vary across states, and licenses are rarely 
transferable if a practitioner moves. This disproportionately 
affects those who have to move due to a spouse's job such as 
military spouses, and mobile, often young workers.
    The negative effects on young people from excessive 
occupational licensing are one reason why President Obama's 
2015 budget called for $15 million to go to states that 
institute common sense reforms, to make sure that licensing 
keeps the public, not established companies and practitioners, 
safe.
    Further initiatives to curb states' desires to license 
young people out of work should be welcomed by federal policy 
makers. Other labor regulations affect the flexibility of 
entrepreneurs' hiring decisions. A recent Labor Department 
proposed rule would expand the numbers of employees who qualify 
for overtime pay.
    Those who earn up to $50,400 a year might have to be paid 
overtime, up from the current level of $23,660 a year. This 
would reduce flexibility for entrepreneurs and their employees.
    Telecommuting, which is another mainstay of startups, would 
also take a hit, since employers would have to keep close track 
of their employee's hours.
    Furthermore, the U.S. Department of Labor is making it more 
difficult for startups to hire contractors. DOL recently issued 
an administrator's interpretation to clarify the definition of 
``independent contractor.'' But the problems for startups arise 
because this interpretation downplays an employer's lack of 
control over employees' hours as a determining factor for 
determining employee versus independent contractor status.
    This means that more workers will be determined to be 
employees rather than contractors, and startups will be forced 
to pay up to 30 percent more, money they often do not have, to 
provide the associated benefits.
    The American Dream may have once been finding employment at 
a large company, working there for a few decades, then retiring 
with a defined benefit pension plan, but now Millennials' 
American Dream looks much different than that of their parents 
and grandparents.
    New opportunities to change or advance one's career are 
prioritized, and individualized flexible work arrangements are 
the model of the future.
    Thank you for the opportunity to give testimony, and I look 
forward to your questions and continuing this discussion.
    [The prepared statement of Mr. Meyer appears in the 
Submissions for the Record on page 41.]
    Chairman Coats. Thank you. And, Ms. Mishory.

 STATEMENT OF MS. JENNIFER MISHORY, EXECUTIVE DIRECTOR, YOUNG 
                  INVINCIBLES, WASHINGTON, DC

    Ms. Mishory. Thank you. Chairman Coats, Ranking Member 
Maloney, and Members of the Committee, thank you for the 
opportunity to appear here today.
    I am the Executive Director of Young Invincibles. We are a 
nonprofit, nonpartisan organization that works to expand 
economic opportunity for young people in this country.
    Definitions vary, but according to Pew there are 75 million 
Millennials, and we are the most diverse generation in American 
history. So 57 percent are White, 21 percent are Hispanic, 13 
percent are Black, and 6 percent are Asian Americans. This 
compares to Boomers of which 72 percent are White.
    In 2013, 65 percent of 25 to 34-year-olds had completed 
some post-secondary education, and about a third of Millennials 
are also parents.
    Overall, we are the most educated, the most tech savvy, but 
also face deep financial challenges. When we interact with 
young people across the country, they tell us about struggling 
to attend school, find good jobs, raise families, and pay down 
debt.
    The Recession accelerated trends that left Millennials with 
critical challenges unlike those seen by our parents.
    First, we have seen challenges in finding employment. While 
young people have experienced job growth in recent years, there 
are several negative trends in youth employment further 
exacerbated by the Recession.
    Unemployment levels are consistently above the overall 
level of joblessness, and this trend is even more troubling for 
young people from communities of color.
    Indeed, Millennials are now the biggest generation in the 
labor force, yet they account for just 33 percent of employed 
Americans. And this can have long-lasting effects. Years later, 
workers who graduate during a period of high unemployment earn 
significantly less than workers with better timing.
    Second, we have seen wage stagnation and benefit reductions 
for this generation. Wages have actually decreased for 
Millennials in the past decade, almost twice as fast as the 
decrease seen by workers across age groups.
    Young people are disproportionately more likely to work in 
sectors with lower wages. So median wages have declined or 
remained unchanged in the last decade in four of the top five 
industries employing most 18- to 24-year-olds.
    Other trends similarly impact this generation. One in four 
employed 18- to 34-year-olds is only working part-time. The 
rise of the sharing economy, while it does provide desired 
flexibility and entrepreneurship for some young workers, it has 
also likely accelerated that trend.
    As a result, many of today's young workers lack key 
benefit, wage, and other workplace protections, and even 
consistent workplace scheduling when it is needed.
    Third, we have seen a growing demand for education, but 
also growing debt. Research shows that by 2020 65 percent of 
jobs will require some sort of post-secondary education beyond 
high school, yet affording college is just too hard.
    Since 1978, tuition and fees have increased over a thousand 
percent, primarily due to a decrease in state spending for a 
student. And state investment is down a total of 23 percent 
since the recession.
    As a result, student debt has ballooned. In 2014, 70 
percent of grads left with an average of $29,000 in debt. 
Students tell us that their debt means delaying major life 
decisions, and a recent study indicated that student debt 
prevented $83 billion in real estate sales last year.
    Overall, the median net worth of young households is about 
$10,000, and that is a 41 percent decline from 1995. So it is 
clear. Tackling these challenges requires action.
    First, we need to invest in quality education. Making 
education more attainable means that states need to reinvest, 
and the Federal Government can help to incentivize them to move 
in that direction.
    And Congress must double down on investments such as the 
Pell Grant and make it available year-round. Moreover, 
simplifying the financial aid process and providing students 
with clear information about which schools are providing good 
outcomes would give students a better chance to make decisions 
that are right for them.
    Congress must also address the quality issues at taxpayer 
funded poor performing schools. We can do this through risk-
sharing models or other means to incentivize schools that are 
doing well.
    Second, we need to help those with burdensome debt. Income-
based repayment plans can provide badly needed relief, and 
those should be scaled up so that those who are struggling are 
not forced to pay back more than they can afford. Additionally, 
student loan refinancing and bankruptcy protections for those 
who are really in dire straits are common sense solutions. And 
those with debt need fair treatment from their loan servicers, 
and that is just not happening right now.
    Third, we need to do more to help youth who are not working 
and who are in school. With 5.6 million opportunity or 
disconnected youth in this country, youth who have potential 
but have not yet been able to find a pathway to work, we must 
scale initiatives to reconnect them to education and job 
training such as those funded through the Workforce Innovation 
and Opportunity Act.
    Apprenticeships also yield graduates with increased 
opportunity for gainful employment and a degree.
    Fourth, we must redesign workplace policies for today's 
economy. Policies that promote family economic security often 
benefit young people, so Millennial parents are actually 
experiencing the highest poverty rates seen by any parents in 
the past 25 years.
    Young parents experience a series of unique challenges, 
including care-taking responsibilities, and barriers to stable 
work and school schedules, as 25 percent of students are 
actually parents.
    Policies such as improving access to on-campus child care 
for student parents, and better access to paid leave could 
better support this generation now starting families. Despite 
the challenges we face, Millennials are optimistic. It is up to 
us to make sure that perception of the future becomes a 
reality.
    Thank you for your time, and I look forward to the 
discussion.
    [The prepared statement of Ms. Mishory appears in the 
Submissions for the Record on page 51.]
    Chairman Coats. Well thank you, and I appreciate the 
testimony from our three witnesses. I will just ask a few brief 
questions here, and then turn to my colleagues.
    Ms. Stefanik, you indicated that despite the challenges 
that Millennials face--and you named a number of them--there is 
a real sense of optimism. That is a bit surprising, given the 
fact that so many Millennials have been labeled as working in 
less skilled jobs than the skills they have, saddled with a 
significant amount of debt, and no longer think that they can 
live the American Dream, or live the dream that their parents 
have been able to live.
    So I am trying to reconcile. Where does that optimism come 
from? Sometimes I think--I am wondering why there isn't more 
outrage, more outrage on the part of a generation that has been 
robbed of the opportunity to live the American Dream? Robbed, 
frankly, by the older generations, of which I am part of. Maybe 
Representative Hanna would be close to it, anyway. Clearly 
the--and you, Mr. Meyer, said that there are government 
policies that have betrayed the younger generation, but, you 
said, not from any of us; it is from all of us.
    It is from all of us who have held elective office and 
executive positions, and presidencies--I am not dividing 
between one party or another party. We have all failed 
dramatically to address the impact of running this country into 
ever more debt, of not making needed reforms to mandatory 
spending programs that are literally drying up all the--without 
determining any kind of priority, good, bad, or indifferent, in 
terms of policies that have been mentioned by all of you, 
unaffordable, unaffordable because so much of our spending now 
goes to mandatory entitlement programs, plus interest on our 
debt.
    And so you can talk all you want about--we can talk all we 
want about supporting students, more Pell Grants for this, more 
opportunities for that, more spending here, more education, et 
cetera et cetera. That is being squeezed every year by our 
refusal to address the main issues here.
    So I am wondering where that optimism comes from when these 
young people recognize that they are being robbed by older 
generations and, frankly, by their elected officials both in 
the Executive Branch and in the Legislative Branch that have 
refused to take steps necessary to address this problem and put 
them on a better path to living the American Dream.
    We all ought to be ashamed of ourselves for falling to 
groups like AARP and others who scare the heck out of older 
people, knowing that we are running this Nation over a cliff. 
And the biggest impact will be on the Millennials.
    Representative Stefanik. Thank you for the question.
    As a Millennial, I know I speak from personal experience 
that you can be frustrated simultaneous to feeling optimistic 
about the future of this country.
    There is no doubt that the issue of our national debt will 
rest on our generation's shoulders. Today we know that our 
national debt is over $18 trillion. If we continue on this 
current trajectory, by 2025 it will be over $27 trillion. This 
is an unsustainable debt load that will continue to hamper our 
generation's ability to grow and create economic opportunity.
    But I did want to point to some of the other more hopeful 
indicators about Millennials. Millennials actually volunteer in 
historic numbers, but they feel very politically disengaged. 
And I am about half the average age of a Member of Congress. I 
think one of the lessons that I try to educate my colleagues in 
Congress is that we need to actively reach out to Millennials 
to make them a part of the conversation when we are making 
public policy.
    Millennials have come of age during a world of government 
gridlock, during a world of partisan bickering, and we need to 
do better about educating Millennials on how legislation that 
we are voting on today will impact their economic futures, and 
the choices economically that will be available to them.
    But we are still hopeful. We live in, you know, an amazing, 
changing economy right now with the information age and growing 
companies like Uber that six years ago did not exist.
    So I think that hope is those positive, disruptive ideas 
that are a result of supporting this empowerment economy with 
greater flexibility and increased entrepreneurship.
    Chairman Coats. Thank you. Mr. Meyer, do you want to 
comment on that?
    Mr. Meyer. Yeah. I would just say I think what Millennials 
see is, even in the face of government inaction, private 
solutions driven by entrepreneurs that really excite them.
    For example, the Post Office still has the same monopoly 
that it's always had, but we have allowed entrepreneurs to 
innovate around the Post Office so that we don't really need it 
anymore. If we look at e-mail, or with private chains that are 
coming in and filling gaps in service, this is what is seen 
throughout the economy, especially as has been mentioned a few 
times, with Uber. Most cities still have in place their taxi 
cartels, where taxis get a special monopoly privilege on 
picking up customers. But Uber has made those effectively not 
matter anymore because it has an entirely different business 
model that has superceded the existing regulatory structure.
    So I think that is why young people are optimistic, and why 
they have such respect for entrepreneurs--not only that they 
want to be them themselves, but they realize the great benefits 
that they have brought to today's economy.
    Chairman Coats. And, Ms. Mishory, I want to give you a 
chance to respond also.
    Ms. Mishory. I certainly agree with my panelists that young 
people are service oriented and volunteer at incredibly high 
rates, and are entrepreneurial. I do think a lot of the 
investments that we can think about making are really smart 
investments.
    So, for example, we did a report a couple of years ago 
looking at the cost of youth unemployment. It was actually 
costing the country $9 billion a year to have so many young 
people out of work. If we could actually scale up some of the 
innovations we have seen, and connecting young people to 
training and jobs that will get them working, that is actually 
going to help grow the economy and get folks back to work, and 
actually alleviate that cost.
    Chairman Coats. Well thank you. I want to urge all of you 
to continue to support that optimism, which means you need to 
put a lot of pressure on us who are making these policies on 
straightening out our debt so they have a better future and not 
burdening them down with regulations that are just no one can 
even begin to keep up with, so that they too can come to a 
point where they can have the same American Dream that we have 
had and that our parents have had, and many others who have 
sacrificed for the future of this country. We are not seeing 
that sacrifice right now--we don't need more handouts, as 
you've said. In my opinion, we need more empowerment. We need 
to give you a reason to be optimistic.
    Congresswoman Maloney.
    Representative Maloney. Thank you so much, and welcome to 
all of the panelists, and especially Representative Stefanik 
who is from the Great State of New York that I also have the 
privilege of representing. And my late husband's home was in 
your District, our family home was. So I am very familiar with 
that area and why you are so devoted to climate change and 
other environmental issues.
    I was very interested in your testimony that you chair the 
Task Force for Millennials for the Republican Majority, and 
your statements on flextime and how helpful it is for companies 
to look at it. And given the example of Uber that allows young 
mothers and students to work and also pursue their careers and 
their education and their children.
    So I would like to ask you to look at a bill that I have 
introduced with Senator Casey on flextime which follows the 
model of England, that allows flextime and is not mandatory but 
protects workers that approach their employers for flextime. I 
think it is flexible and good and could respond to the 
challenges that you pointed out in your testimony.
    Also I was interested in your support for climate change. 
You were an original co-sponsor of a resolution recently 
introduced in the House that noted the dangers of saddling 
future generations with costly economic and environmental 
burdens. And I would like to hear your thoughts on what should 
be done to address climate change.
    And isn't failing to act on climate change imposing 
additional burdens and costs on your generation?
    Representative Stefanik. Sure. So I welcome the opportunity 
to review your legislation on greater flexibility in the 
workplace. So the concept that Uber discussed, as well as 
PricewaterhouseCoopers, I think that makes them unique is that 
they were essentially ideas that came from the workforce and 
the companies themselves.
    So PricewaterhouseCoopers talked about how they were able 
to model a flexible--you know, flextime that was responsive to 
what their workforce said they were looking for. So the needs 
of, for example, single parents are very different than 
students who are maybe pursuing their graduate degree, or 
taking extra classes outside.
    And I think the key for me is providing flexibilities for 
companies for policies that work to continue to promote 
Millennials and provide economic opportunity for Millennials to 
grow.
    In terms of my original co-sponsorship of the resolution 
related to climate change, I represent New York's 21st 
District. The health of our environment is critically tied to 
the health of the economy. But in terms of policymaking, we 
have to find a balance in addressing this issue that is not 
crushing jobs and creating overly burdensome regulatory costs.
    I think we need to have this conversation going towards the 
future, but I believe it should not be just one-sided. And when 
I talk to Millennials, their key concern is getting a job in 
today's economy. And we need to make sure policies and over-
reaching rules are not crushing our jobs today. But that 
conversation needs to happen.
    Representative Maloney. I would say you represent one of 
the most environmentally beautiful Districts in the country, 
and I look forward to further conversations on these two 
issues.
    I would like to ask Ms. Mishory. The oldest Millennials 
were 27 years old and beginning their careers when the Great 
Recession hit, and the impacts on their employment, income, and 
wealth have been painful.
    How has the Great Recession affected the employment and 
earnings prospects of Millennials? And are these short or long 
term impacts on their careers?
    Ms. Mishory. Well the Recession certainly hit Millennials 
the hardest. And so we are seeing a generation who graduated at 
a time when they could not find work, and they could not find 
work at higher rates than other age groups.
    And research does show that those effects on wages can last 
for as long as 15 years, and perhaps even longer. So someone 
graduating at a time of recession will see that impact over 
time.
    So I do expect that those folks that have graduated during 
that time period will see that for a long time.
    Representative Maloney. And Millennials are also less 
likely to own their own homes, and more likely to live at home 
with their parents than previous generations. And is this 
explained, in part, by the difficult economy which they have 
inherited?
    Ms. Mishory. Sure. And folks ask that question a lot, and 
most young people do not want to be living at home when they 
are 25, 26, 27. It is not a choice. I mean, we are talking 
about people who are trying to find work, trying to save up, 
and whether it is save up in the rental market that they happen 
to live, or to be able to purchase a home, I think those 
challenges are reflective of a confluence of issues.
    So we are seeing either declining or stagnant wages. We are 
seeing people that graduated during the Recession and could not 
find a job. And then we are seeing folks that have student 
debt.
    And we have seen poll after poll, study after study show 
that having student debt is impacting the housing market. And 
as I mentioned in my testimony, we are starting to quantify the 
billions of dollars in sales that it is actually holding people 
back from.
    So, absolutely. And I would say, finally, when it comes to 
home ownership, it is also a generation that saw their parents 
lose their homes, and I think are going to be perhaps a little 
bit more reluctant to jump into the market.
    Representative Maloney. My time has expired. Thank you.
    Chairman Coats. Thank you.
    Congressman Hanna.
    Representative Hanna. Thank you.
    As we know, we can agree that college is more a necessity 
than ever, but it is also a choice. College debt is a choice 
that people face, and a choice I think they have to make.
    And speaking of Uber, you may want to talk about this, Mr. 
Meyer, but right now the income from--for someone who runs a 
Uber business, they are asking that it become W-2 income. Are 
you familiar with that? I think that is in California, to be 
precise.
    But I want to ask you about something that Senator Coats 
referred to. And that is, this notion of intergenerational 
theft. Because while I agree with that, and I agree that we 
have this enormous debt and slow growth, a lot of what Ms. 
Mishory talked about would actually add to that, respectfully. 
Pell Grants have grown exponentially in the last few years to 
around, I think, $25 billion.
    And some of the other programs, the state-funded education, 
all of those kinds of things add ultimately to this problem.
    So, I mean you have a bigger problem than we do, right, and 
we are piling on. So how do you reconcile that with--and how do 
you feel about the term ``intergenerational theft''? It is 
curious to me that we use that, because it is benefiting our 
parents--me, soon enough. Anyone? Elise?
    Representative Stefanik. Thank you, Congressman Hanna, and 
my good friend from Upstate New York. You know, I think our 
national debt and our budget crisis in this country is a 
generational issue. That is how I talk about it with my 
constituents, most of whom are seniors, and they fear for their 
kids and their grandkids' future.
    I wanted to refer back to Senator Klobuchar's initial 
statements that it is not only the national debt which is going 
to be a huge challenge for my generation, but it is also our 
savings crisis on an individual basis. The fact that 
Millennials are facing the crushing debt of students loans. 
They are pushing off pursuing home ownership. And they are not 
saving for the long term.
    We are going to be the generation that will, you know, 
hopefully be there to support our parents as they become 
seniors, and we will probably become caretakers and will have 
to make some of those--you know, will be making those 
decisions, but also, you know, providing the economic support 
for our parents as they live longer.
    So I think the savings crisis and promoting financial 
literacy, and promoting more awareness of Millennials of the 
importance of saving early will be beneficial. That is 
completely aside from our national debt, which of course is a 
generational issue.
    Mr. Meyer. Well, Congressman Hanna, I want to thank you for 
bringing that up because I actually just had a report released 
yesterday through the Manhattan Institute describing 
entitlement programs as programs that steal from younger, 
poorer Americans, and give to older wealthier Americans.
    And the reason we have not seen reform when it comes to 
entitlements is older Americans view it as if they deserve 
these benefits. But if you look at what a typical senior who 
retires between--or who retired between 2000 and 2010 will 
receive in Medicare, it is about three to seven times more than 
what they paid in, even taking into account the possibility 
that they would have gained investment income if they were 
allowed----
    Representative Hanna. Over a third of the people on, say, 
Social Security represents about 90 percent of their income, so 
the alternative is to push them into abject poverty?
    Mr. Meyer. I don't disagree with your number, but I think 
that is looking at the wrong picture. If we are looking at 
income, it is only looking at part of the picture of older 
Americans.
    Very few are working, so of course they are not receiving 
much income. But the wealth levels have grown drastically, if 
you look at young Americans versus older Americans.
    In fact, the average household wealth for a household 
headed by someone 65 years or older is 50 times greater than 
the average household wealth for a household headed by someone 
35 or younger. And this was only 10 to 1 in the mid-1980s.
    So if we want to talk about increasing income inequality, 
the increase between the oldest Americans and the youngest is 
something that we need to be looking at when we talk about 
entitlements.
    Representative Hanna. But, arguably, they had a lifetime to 
earn that, too.
    Mr. Meyer. Yes, but it has been increasing, about five 
times.
    Representative Hanna. Ms. Mishory, with 30 seconds left I 
have.
    Ms. Mishory. You know, I think that--I think that the word 
``intergenerational theft'' is not necessarily the way a lot of 
young people look at it. I think that it is worth thinking 
about these safety net programs. Young people are thinking 
about their parents, their grandparents, and themselves. So I 
think young people do take a more nuanced view to it.
    Representative Hanna. So it is a bigger crisis than just 
your generation. It is all of us.
    Ms. Mishory. And young people are generally supportive of 
ensuring that these social safety net programs are there in the 
long run, but also there for their parents as well.
    Representative Hanna. My time has expired. Thank you, 
Chairman.
    Chairman Coats. Congressman Beyer.
    Representative Beyer. Thank you, Mr. Chairman.
    And, Congresswoman Stefanik, so much of what we have been 
talking about is how government is messed up and created these 
conditions, and what government should do. And yet I heard this 
morning that only 12 percent of Millennials are registered to 
vote.
    By the way, old people are really good at voting.
    [Laughter.]
    Mr. Meyer. Ms. Stefanik, what can we do to inspire people 
born between 1980 and 2000 to actually participate in the 
political process?
    Representative Stefanik. Thank you so much for the 
question. I think that particularly as Members of Congress we 
need to constantly reach out to Millennials, whether that is 
going to college campuses, whether it is going to training and 
development programs, preparing our workforce to talk to them 
about why policies are relevant.
    The other interesting statistic that is somewhat related is 
recently Time Magazine found a poll that 89 percent of 
Millennials are not interested in running for office in the 
future.
    This is, again, that disconnect between the historic 
numbers of volunteers among Millennials versus they do not 
connect that to public policy and the importance of making sure 
that their voice is heard.
    We need to change that as an institution. I am, you know, 
very concerned that unfortunately we will not have the best and 
brightest wanting to run for office at the local, state, or 
federal level, and we need that here today.
    I have been in Congress for less than a year, and we need 
the best minds possible from diverse backgrounds, from all 
across these very different districts to solve these 
generational issues we face.
    Representative Beyer. Thank you, Elise, very much.
    Ms. Mishory, Isabel Sawhill over at Brookings wrote a book 
last year about marriage in the United States, and said if you 
draw a straight line by 2050 no one will get married in the 
country. And we are already seeing this right now. The 
generation of my kids, nieces and nephews, are all waiting and 
delaying.
    Should we be worried about this? What can government do 
about this? What does this mean for population growth in the 
years to come?
    Ms. Mishory. We are certainly seeing the data play that 
out. So young people tend to get married later, tend to have 
kids later. You know, I think that there may or may not be some 
cultural decisions, and sort of more having to do with the 
culture of this generation. But I also think there is a lot of 
economics going on here. So a lot of financial decision making 
and going back to the issues of student debt.
    We see over and over again young people telling us, polls 
telling us that people are delaying those major life decisions 
because they have debt. So they cannot save for that down 
payment. They cannot save to have a kid. We have talked to 
student debtors who say--there is one woman in particular who 
told us, you know, I found out I was having my first child and 
I couldn't get excited because I didn't know how I was going to 
afford it because I had all this student debt.
    And so it is really impacting young people in some very 
major ways.
    Representative Beyer. Great. Thank you.
    Mr. Meyer, I was fascinated by so many of the things that 
you said that I actually disagreed with, but I respect it. But 
you talked about barriers to entry.
    I was in the Virginia General Assembly for eight years and 
every business bill I saw for eight years created by business 
was to create a barrier to entry so that other businesses could 
not compete against them.
    So it is not government so much, necessarily, that is doing 
that but businesses themselves. For example, on credit, every 
person I talk to wants to borrow from a bank says as long as I 
don't need the loan the bank will give it to me. They are 
sitting on enormous amounts of resources that they won't lend 
out.
    Occupational licensing. We are a federal legislature. 
Occupational licensing is almost completely down at the state 
level. So should there be federal intervention on licensing?
    Mr. Meyer. First of all I couldn't agree with you more 
than, more often than not, regulation has the fingerprints of 
big business on it. People who want to use the government to 
keep out new competition by raising the barriers----
    Representative Beyer. Small business, too.
    Mr. Meyer. Yes, that's true. But I would say, when we look 
at occupational licensing, this is something that I'm glad that 
President Obama is really taking the lead on where he's 
released a framework for policymakers and also calling for the 
amount going to the states that institute successful reforms in 
his budget.
    I think it is something that has gotten so bad now--again, 
one in three workers needing government permission to work, up 
from one in 20 in the 1950s--that it does need some sort of 
federal involvement, or at least federal prodding, where we're 
saying to states: You need to take a long, hard look at your 
list of licensed occupations. And when you see things such as 
African hair braiders, or interior designers, or florists on 
that list, you need to take a look at who is being protected? 
Companies, or the public?
    Representative Beyer. And one last thought--thank you, very 
much. On the contractor issue, the six-part test, I think it is 
really important to see the other half of the story. Which is, 
employers who bring people on board to do a job full time and 
treat them as contractors just so they don't have to pay 
benefits or Social Security, or Unemployment Compensation.
    At the same time, in virtually each of the six parts they 
actually are employees. And that is what they were trying to 
protect.
    Mr. Meyer. I would just say, looking at the rise of the 
sharing economy, this is something we need to encourage, the 
flexibility and individualized work model. And if it is allowed 
to go forward as it is stated right now, I think this will put 
a major threat towards the sharing economy's business model.
    Representative Beyer. My friend, Senator Mark Warner, is 
worried about this a lot. The dilemma with the sharing economy 
is that, at the same time do you want to strip away rights that 
employees have had for more than 100 years in this country, to 
things like Social Security contributions?
    Thank you, Mr. Chairman.
    Chairman Coats. Congressman Paulsen.
    Representative Paulsen. Thank you, Mr. Chairman. I want to 
thank all of our panelists for being here today. It has been 
really good testimony. As the father of four daughters, two of 
whom are Millennials, this kind of strikes home.
    I am worried about the challenges they face. I am also 
optimistic about the opportunities that they have, and what 
their generation, and your generation can certainly achieve.
    As we have learned in this Committee, there are some 
challenges facing this generation for sure. It took five years 
just to reach the starting point in terms of making up for the 
number of jobs that were lost since the recession ended. That 
has never happened in our country's history before, where it 
took that long.
    It is also the first time ever in an economic recovery 
where incomes have declined, median household incomes. So they 
have certainly got some challenges that they are facing as they 
enter the workforce, and as they've graduated and they have to 
retire student debt.
    Congresswoman Stefanik, let me just start here. I think you 
are uniquely qualified to answer this question. Your testimony 
covered some of the challenges and the opportunities facing 
Millennials generally. I am hoping you might also share your 
perspective specifically on the challenges and opportunities 
that Millennial women face, and what should we be doing here in 
Congress to help address some of those unique challenges?
    Representative Stefanik. That's a great question.
    If you look at Millennials, women are the majority of 
college graduates today. That certainly was not the case if you 
look back to our parents' generation. Also increasingly women 
are the primary bread winners in their families.
    So the economic decisions that are made by a family are 
increasingly made by women. I think that it is incredibly 
important as policy makers to reach out to our female 
constituents, all of our constituents, but specifically talk to 
people who are making those decisions in a family, which is 
more and more falling on women's shoulders.
    I know, you know, from a freshman Member of Congress 
perspective, much of the case work that I focus on in my 
District when I hear from seniors who are facing challenges 
related to Social Security, Medicare, or appointments through 
the VA, we usually hear from their adult daughter who is 
helping them go through the federal bureaucratic process, and 
they are trying to overcome some of the challenges that the 
Federal Government has placed in their way.
    So I think recognition of the growing importance of women 
in our economy today, that the broader economic success of 
women is directly correlated to the economic opportunity for 
our country's future.
    Representative Paulsen. I will let all of you comment on 
this, because you have all mentioned how the workforce has 
changed significantly from the time when many of us were first 
entering it. Millennials entering the workforce hold very 
different priorities and values in terms of a flexible schedule 
and time off that some other generations did not care as much 
about.
    You talked about Uber and Pricewaterhouse for instance. In 
the House we passed the Working Families Flexibility Act, which 
will allow employers to offer private-sector employees time off 
in lieu of wages for overtime.
    Maybe each of you can give a comment about how should 
Millennials' priorities guide our thinking as we consider other 
future legislative initiatives?
    Representative Stefanik. Yeah. So you're referring to the 
Working Families Flexibility Act. I am a proud co-sponsor of 
that legislation introduced by Congresswoman Roby.
    I also think, you know, what I've learned in the Millennial 
Task Force from the perspectives of companies who are trying to 
attract and retain Millennials, it is the ability to create a 
program that is flexible to work within your company.
    So not this one-size-fits-all approach. Because if you have 
thousands of individuals in your workforce versus a small 
business like my family's plywood distribution business, you 
are not going to be able to have the same government-mandated 
approach. I think we should be encouraging that flexibility for 
companies, again, to attract and retain Millennials.
    Representative Paulsen. Mr. Meyer.
    Mr. Meyer. One of the things I worry about when I see the 
new proposal to raise the overtime limits are that a lot of 
companies that don't fit into the target are going to be 
affected.
    So what people are looking at mostly when they're pushing 
to raise the overtime limit are fast food establishments. But 
they are forgetting about the large number of startups who 
often pay their employees in equity, and a few of them are 
paying entry-level employees over $50,000 a year. So now 
things, such as telecommuting, are going to take a hit. You're 
going to have to keep much closer track on your employees and 
not have the option to offer flextime or comp time in addition 
to working longer hours, which I know is something that young 
people are very interested in.
    Representative Paulsen. Ms. Mishory.
    Ms. Mishory. You know, I would certainly reflect similar 
comments on flexibility, young workers do value flexibility 
much more than previous generations.
    Young workers also tend to value the mission and really 
working for something they believe in. That might be sector 
agnostic. That doesn't mean they need to work for a nonprofit. 
But really wanting to make sure that they are making a 
difference. And those types of things show up again and again 
in polling.
    I do think that as we're talking about flexibility it is 
important to note specific issues facing young families and 
young parents. So, for example, access to paid leave, paid 
sick, to be able to take care of a child who gets sick and be 
able to also hold their job is critical for young families.
    Representative Paulsen. Thank you, Mr. Chairman.
    Chairman Coats. Thank you. Senator Cassidy.
    Senator Cassidy. I thought you were going to the other 
side. I'm sorry.
    Representative, thank you for instigating and inspiring 
this meeting. Thank you all. Frederich Hayek would be very 
pleased with your testimony, Mr. Meyer. The regulatory agency 
co-opted by the businesses.
    Let me ask you all. ``The New York Fed recently pointed out 
how those in the lowest quantile of college graduates really 
don't do that well, relative to those without a college 
education, in terms of income.''
    Now we have been hearing a lot about the burden of student 
loans. And to a degree it seems like everybody advocates 
greater transparency. The student who is taking on the debt 
should know this particular degree is more or less likely from 
this particular institution to usher me into prosperity, or to 
keep me chained to debt. With me?
    I am not really sure how to accomplish that. The Federal 
Government I think has just kind of thrown in the towel. So 
what are your all's thoughts? Do you think there would be an 
appetite for that high school grad to be able to look on and 
see that St. John's, if you graduate from there you're going to 
be testifying before Congress, but perhaps some place maybe 
not?
    I open that up.
    Mr. Meyer. Well luckily the data is now publicly available, 
but it is not that accessible at this point. So you can look on 
the College Report Card, it's actually something that came out 
about two months ago, a public database that the White House 
put together.
    Senator Cassidy. But as I gather, though, if you can go to 
one university and get a degree in gender studies and really 
have no option but maybe grad school, you hope, and from the 
same place get a degree in engineering and have six figures as 
your first job, I don't think that database necessarily 
differentiates between programs within the same college. Am I 
correct on that?
    Mr. Meyer. There's also been quite a wide variety of 
academic research where researchers have looked at Bureau of 
Labor Statistics data on this, because the government started 
asking for the 2010 Census what your major was. So people are 
actually able to see this now.
    But I would agree with you that it is not that accessible 
to the public, yet. So while it is out there, people in policy 
and people in government may be able to look at this, but your 
typical high school senior, they're not going to be out pouring 
through these databases. So something to make that more 
accessible I think would be welcomed to try to turn around 
the----
    Senator Cassidy. If it were accessible, would it therefore 
be accessed?
    Mr. Meyer. I think it would, because right now data that is 
often not mentioned is that 4 in 10 college freshmen still 
don't graduate within 6 years. So we are pushing a lot of 
students into a 4-year college where they don't know what they 
want to study, and they don't realize that while college----
    Senator Cassidy. That is a different issue than the quality 
of education. I mean, if you go to, you know, a for-profit 
which some are good but some are bad, and some are going to 
charge high tuition, et cetera, et cetera, and you are going to 
end up with a degree which is not worth very much, that is 
different from not knowing what degree you want to end up in.
    Mr. Meyer. That is true.
    Senator Cassidy. Well one is a lack of maturity, and the 
other is a lack of a quality option.
    Ms. Mishory. I do think we are still missing a lot of that 
data. So we do have more of the school-level data that was 
released in the last few months. We don't have the program-
level data, which is I think what you're getting at, and 
information that would be critical.
    So when we hear from young people about how they are 
thinking about schooling and higher education, they are 
interested in finding a job, and they're interested in 
bettering their lives.
    Senator Cassidy. So if you put a different question, if you 
go to this school with this degree, you're more likely to have 
a job, and you're more likely to have this sort of debt load, 
if you finish in four years, this if you finish in five, some 
sort of algorithm that they can plug in their plans?
    Ms. Mishory. Yeah. I mean we don't provide that information 
right now, and we certainly don't provide it in a way that is 
accessible for students and families to make decisions about.
    Senator Cassidy. Okay.
    Representative Stefanik. I serve on the Committee on 
Education and Workforce on the House side, and this is an 
issue--to answer your question--would young people access this 
information? Absolutely. I think greater transparency in the 
job opportunities after you graduate, what the median income 
over the next 5 or 10 years, or even a lifetime would be, I 
think we would have Millennials looking into to pursue higher 
education degrees that will be more likely to lead to jobs.
    But I also think that we need to have a discussion about 
financial literacy when young people decide to take on these 
student loans so that they can connect their debt burden with 
their job potential afterwards with the data that you just 
recommended.
    Senator Cassidy. Okay, so it is actually a little bit, for 
those who lack the maturity or the financial literacy, you 
can't ensure that they would use this data accurately and 
adequately, but nonetheless the first thing is you have to 
provide the data. Fair statement?
    Representative Stefanik. I wouldn't call it a lack of 
maturity. I would----
    Senator Cassidy. No, I just say that because, believe me, I 
am very aware that some people start college and change majors 
three times. And they end up in what they really want to do 
from when they start, but maybe we are just defining it 
differently but we probably both know folks like that, huh? 
They think they want to be a doctor and they end up a lawyer, 
or vice versa.
    Representative Stefanik. And I think having that data about 
what, for example, their annual salary will be after they 
graduate, what percentage of graduates from a particular 
program are able to find jobs immediately or in the first three 
to six months, having that information will ensure better 
decision making for an individual's future.
    I also think we need to rethink how we provide higher 
education today. So the average college student looks very 
different than the average college student of 20 years ago. 
They are slightly older. Oftentimes they are a single parent. 
Increasingly they are Veterans and therefore older.
    We want to encourage a faster, finishing your higher 
education degree faster than what you referred to, Mr. Meyer, 
as staying in college for six years.
    So one of the bills I have introduced is Flexible Pell, 
year-round Pell so that you not only can apply as a student for 
fall and spring funding, but that crucial summertime where you 
may want to continue pursuing your education so that you can 
graduate earlier and hopefully not to continue to increase your 
student loan debt.
    Senator Cassidy. Thank you. I yield back.
    Chairman Coats. Senator Heinrich.
    Senator Heinrich. Representative Stefanik, first off I want 
to thank you for your efforts on Flexible Pell. I share that 
view, and I think it is particularly important in states where 
we have a lot of nontraditional students who need to be in 
school in summer, and who need to finish as quickly as they 
can. So I would applaud your efforts on that front.
    I want to talk a little bit about the issue that came up 
earlier of climate change. You know, given the fact that we 
have--my generation and previous generations--have created this 
issue, which we are now shifting the burden for coming up with 
a solution squarely onto the Millennial Generation, and 
generations that come after Millennials like my kids, 
effectively of posing attacks on GDP productivity in the 
future. Oftentimes, as you know, that conversation you were 
talking about gets bogged down into regulatory and policy 
issues versus innovation and R&D issues.
    I am just curious if you have thoughts about what some of 
the private sector solutions are to addressing climate change 
that you're excited about.
    Representative Stefanik. Sure. So in my District we have a 
number of exciting I think ways to help solve this generational 
issue. One is biomass. Biomass is a growing sector in broadly 
the Northeast, but specifically in my District. It is 
affordable, and it helps address I think the long-term 
environmental challenges.
    I also think that, you know, one of the key points that I 
didn't state before is, this is a global issue. This is not an 
issue that the United States can go it alone. We need to reach 
out to countries like China and India to make sure that they 
are a part of the solution.
    But I absolutely agree that we need to get beyond the 
issues of regulation and actually talk about where we can 
innovate, and where we can invest in research and development.
    Senator Heinrich. One of the interesting innovations that 
we have seen, and we were talking about how sometimes 
businesses like to put up barriers to new innovative businesses 
coming in and changing their business model. You know, I grew 
up in a utility family. My dad was a lineman. But utilities had 
a monopoly, and today we are seeing people become their own 
power generators, not only with distributed renewables but also 
by utilizing things like plug-in electric vehicles and other 
storage devices on the grid.
    Do you have any thoughts with regard to that particular 
dynamic and what sort of policies we should have in place to 
allow those innovations to continue to change the business 
model and change the market?
    Representative Stefanik. I think innovation is good for the 
economy. I think it is important to recognize as a country 
that, you know, the population density is very different. So I 
represent a very rural District. Many of my constituents are 
driving, you know, over an hour to and from work every day. So 
we don't necessarily have the infrastructure to pursue that the 
way potentially urban districts are trying to pursue that type 
of innovation.
    But as a Millennial, I am a believer in innovation. I think 
that if the government gets out of the way, there are lots of 
ways to solve this issue in the private sector and with 
technology companies and renewable energy.
    Senator Heinrich. Thank you. Ms. Mishory, I want to sort of 
switch gears real quick, since we have the potential for seeing 
a highway bill emerge from the Congress in the future weeks. 
And one of my frustrations is that we have gotten away from 
basically paying for things. Around here it's become more and 
more politically difficult for many of my colleagues to 
honestly pay for things.
    And not only are we not funding infrastructure, new 
infrastructure, brand-new infrastructure going forward at the 
rates that we need, but we are not even really having the 
decency to maintain all of the infrastructure that previous 
generations have built and given to us.
    And we have been coasting on that infrastructure for a long 
time. So how can Congress support and improve--let me back up. 
One example I'll give you is there's talk about how we're going 
to pay for the current highway bill with things like, 
literally, asking community banks for a stake in paying for 
what is effectively a transportation infrastructure piece of 
legislation.
    So what should we be doing on the infrastructure front in a 
way that honors the previous investment that generations have 
made, but at the same time providing the Millennial Generation 
with the foundation for success that they deserve?
    Ms. Mishory. So it's interesting. We are actually running a 
series of roundtables with young workers in Houston, Texas. We 
have an office down there. To hear about the challenges they 
are facing in the workplace. So finding jobs, wages, et cetera. 
And this issue of infrastructure has come up because young 
people are actually having trouble getting to work, getting to 
interviews, being able to actually engage in the workforce 
because of the infrastructure problems that they are seeing.
    So I think it is an interesting issue that is impacting 
young people in a variety of ways.
    Chairman Coats. Thank you, Senator. Congressman Schweikert.
    Representative Schweikert. Thank you, Mr. Chairman.
    Can I pass down just a couple of these slides? And I lost 
my representative--oh, fine. The one question I had for her.
    [Laughter.]
    One of the reasons I'm passing out this chart, you know, 
we've had this discussion bounce back and forth, and I think 
the proper term is cross-generational wealth transfer--but how 
quickly some of these numbers, and what they do to your future 
position in the world.
    Mr. Meyer, when you hit--and I am going to assume right now 
today you are in the top tax bracket--when you hit my age, your 
tax bracket goes from 35 to 66 percent. And that is just your 
federal income tax. That may not be the supplements that are 
required to deal with Social Security, Social Security 
Disability, Medicare. And that is baked into the numbers. That 
is not one we get to fudge. That's not one we get to walk away.
    So someone who is in college today, when they hit their 
peak earning years, their federal income tax will be double 
what ours are. And we have done this to the generation 
following us. And that is the basic math.
    And there is a question built in here, and that is: How do 
you activate Millennials particularly to understand the 
structural, you can call it the structural deficit, structural 
financial destruction in many ways our fiscal policies have 
done to them?
    A good example is--and I am going to, Mr. Chairman, without 
objection I would like to actually put this report into the 
record--I as a Baby Boomer when I retire, I am going to be 
about a quarter of a million dollars plus on the earned social 
benefits I receive. A Millennial, you are basically going to be 
about $180,000 upside down, where you are going to pay out more 
taxes by about $183,000 than you are going to receive. But when 
I hit Social Security/Medicare, I get a quarter of a million 
plus side. And this is what we have done structurally.
    Do you run into Millennials that understand what we have 
done to you?
    [The chart titled ``Marginal Tax Rates Must Nearly Double 
to Fund Entitlement Spending'' appears in the Submissions for 
the Record on page 61.]
    Mr. Meyer. Millennials realize that Social Security 
especially is facing funding problems. And actually a majority 
of them don't think they are going to get any money back at 
all, which isn't true.
    But what is surprising is they still have pretty vast 
support for the program, because they realize that there are 
certain retirees who need----
    Representative Schweikert. Do they support the concepts 
that we have to rebuild and redesign them almost immediately?
    Mr. Meyer. Yes, they do. Actually, over 7 in 10 Millennials 
view private accounts as something that should be pursued for 
Social Security. You can't even find a group of 7 in 10 
Republicans who hold this view. So Millennials realize 
something needs to change, and I am glad you brought up the tax 
increases. But what I found is the most effective way to show 
that young people are going to be paying a lot more for Social 
Security is bring up that if nothing changes, in 2050 people 
will be paying a 31 percent payroll tax.
    So ignoring the income tax, ignoring all your housing or 
rent payments, you are going to be losing almost a third of 
your hard-earned income just to cover Social Security and 
Medicare.
    Representative Schweikert. You actually didn't have to 
charge it to the payroll tax.
    Ms. Mishory. Certainly Millennials are interested in 
ensuring that Social Security is there in the long run.
    Representative Schweikert. But the real 10,000 pound 
gorilla here is actually not Social Security, it's actually 
Medicare.
    Ms. Mishory. And I think when we look at polling to see 
where young people's priorities are, there is support for those 
social safety net programs and ensuring that they are there for 
the long run, and ensuring that they are there for their 
parents. So I think there is interest in ensuring that those 
programs----
    Representative Schweikert. But when you--but, I mean you 
hold forums and seminars, do you get feedback of any 
understanding of the scale? Okay, it is one thing to say I 
support there being the earned social, you know, entitlements, 
the social safety net--the understanding of the scale of how 
out of whack the numbers are?
    Ms. Mishory. Yeah, I do think that there is--and again, 
looking at polling and research data--there is certainly 
interest in ensuring that there are not benefit cuts. In the 
long run, that is the sort of research that we have seen, to 
make sure the programs are there for their parents and----
    Representative Schweikert. But once again, how do you make 
that math work? I mean, at some point math is math.
    Ms. Mishory. Sure. I mean, I think that when young people 
are looking at how these programs will be here in the long run, 
looking at some modest changes to make sure that they're there 
is something that, you know----
    Representative Schweikert. Modest changes don't shore it 
up, don't come close.
    Okay, look, Mr. Chairman, obviously I am hoping the panel 
members get a chance to read over the report and some of the 
actual numbers. There is something very creative that this 
Committee could focus on. I know we care a lot about the earned 
social entitlements being there in the future, but we are also 
entering the world of the new economy.
    Are we going to have to rethink how you fund these 
programs? If I live in the world as an Uber driver, is there a 
sliver on each Uber fare that goes to the social entitlement 
accounts? I mean, we are going to have to rethink the future, 
because the new economy, the hyper efficient economy where we 
are all carrying a super computer in our pocket, is changing 
things around us very, very fast, yet we still have sort of a 
1930s mindset on how we fund, you know, these government 
programs. And I am hoping somewhere here, you know, one of the 
gentlemen on the end was being actually very creative in what 
the future should look like. I think we are going to all have 
to do that.
    And with that, Mr. Chairman, thank you for your patience. I 
yield back.
    Chairman Coats. Well thank you. This has been a most 
interesting subject, with a knowledgeable panel. We have a 
little bit of time, if any of the Members here have additional 
questions this is the time to ask them.
    Ranking Member Maloney.
    Representative Maloney. No.
    Chairman Coats. Congressman Beyer, everybody has got work 
to do. I think the most important thing I take away from this 
is that we need to delve into this, as Congressman Schweikert 
said, into a much more detailed hearing relative to how we are 
going to address this coming over-the-cliff fiscal situation 
and the impact that it is going to have on the younger 
generation.
    I am glad to hear that some of them are thinking about 
this. But when I hear things that young people are concerned 
about taking care of the older generation, it makes me say 
shouldn't it be the other way around? Shouldn't the older 
generation, which is benefiting way beyond what they have 
contributed, be worried about what is happening to the younger 
generation?
    So that is an issue that needs a lot further discussion. I 
want to thank our witnesses and panel for being here. Most 
interesting, and I will include Congresswoman Stefanik, as 
Millennials you certainly brought us a good deal of information 
and a good deal of knowledge, and we encourage you going 
forward in the future to help us work through these very 
challenging issues.
    With that, this Committee hearing is adjourned.
    (Whereupon, at 3:23 p.m., Wednesday, November 18, 2015, the 
hearing was adjourned.)

                       SUBMISSIONS FOR THE RECORD

   Prepared Statement of Hon. Daniel Coats, Chairman, Joint Economic 
                               Committee
    The committee will come to order.
    I would like to welcome our witnesses and thank them for being here 
today to discuss important issues facing the Millennial generation. 
Generally defined as those between their late teens and early thirties, 
Millennials represent the largest generation in our country--as a 
percentage of the population and as a percentage of the workforce.
    Widely recognized as well-educated, tech-savvy, and confident, 
Millennials should be successful in our modern economy. However, as 
discussed in a report released by the Joint Economic Committee 
yesterday, today the Millennial generation faces unprecedented economic 
obstacles. Allow me to share a few:

    <bullet>  Our economy continues to grow at an anemic pace, which 
has significant implications for Millennials entering the workforce. As 
noted by the Pew Research Center, the labor market recovery for 
Millennials has been ``much less robust'' compared to recoveries 
experienced by previous generations.
    <bullet>  Millennials are receiving lower starting wages than 
previous generations, and their education also comes at a higher cost, 
saddling many Millennials with significant post-college debt 
obligations.
    <bullet>  As we noted in a recent JEC hearing on higher education 
financing, higher student debt coupled with limited job prospects makes 
it difficult for many Millennials to take out a mortgage for a home. 
These same financial pressures also delay starting a family.
    <bullet>  Growing government regulations continue to discourage 
entrepreneurship, particularly for younger workers. The number of 
people under 30 years old who own a private business has recently 
fallen to a 24-year low, down to 3.6 percent from over 10 percent in 
1989. This is certainly a disturbing trend, and one which threatens the 
long-term health of our economy.
    <bullet>  Finally, the federal government's long-term fiscal 
challenges continue to cast an ominous shadow over Millennials' 
futures. Our federal debt is approaching $19 trillion, of which each 
Millennial owes a share.
    <bullet>  For all the taxes that Baby Boomers and older generations 
have paid into the Social Security and Medicare systems, they will 
benefit, on balance, over their lifetimes. However, Millennials have no 
shot at receiving fair value for the taxes they pay into a system 
rigged for intergenerational theft.

    This leaves Millennials to question not only the feasibility of 
upward economic mobility and eventual retirement, but to question 
whether the American Dream will be attainable for them at all. Because 
federal policy has either created or worsened many of the most pressing 
challenges facing Millennials, Congress has a responsibility to address 
them.
    I look forward to hearing today from our distinguished panel of 
Millennial witnesses on ways we can create greater economic opportunity 
for their peer group. I would like to thank, in particular, 
Representative Elise Stefanik (Steh-FAWN-ick) for joining us today to 
offer her perspective.
    With that, I now recognize Ranking Member Maloney for her opening 
statement.
[GRAPHIC] [TIFF OMITTED] T7901.001

[GRAPHIC] [TIFF OMITTED] T7901.002

[GRAPHIC] [TIFF OMITTED] T7901.003

[GRAPHIC] [TIFF OMITTED] T7901.004

[GRAPHIC] [TIFF OMITTED] T7901.005

Prepared Statement of Hon. Amy Klobuchar, a U.S. Senator from Minnesota
    Thank you, Mr. Chairman. I'm pleased the Committee is discussing 
Millennials' Voices and the American Dream.
    I would like to submit my questions for the record.
    I would like to welcome all of the witnesses here with us today. 
And I know that Representative Stefanik has a Minnesota connection 
having worked for former Governor Pawlenty's presidential run in the 
last election.
    I believe the issues Millennials are facing reflect the changing 
nature of work in an on-demand economy. That's why I will be holding a 
summit in Minnesota next Tuesday, November 24th. I also recently held a 
Steering and Outreach Committee meeting on this issue.
    In that meeting and in your testimony, I have heard that while the 
Millennial generation is the most educated generation and has access to 
technology, they are still concerned about student loan debt. I have 
also heard about the possibilities of the gig economy, and the concerns 
about access to paid sick leave and paid family and medical leave and 
the ability to save for retirement.
    As our economy changes, we need to put in place policies that 
continue to support the middle class so that the Millennials will have 
every opportunity to achieve the American Dream.
                               __________
 Prepared Statement of Hon. Carolyn B. Maloney, Ranking Member, Joint 
                           Economic Committee
    Thank you Chairman Coats for calling today's hearing.
    Millennials are central to our Nation's economic, social and 
cultural vitality. They are the largest generation--bigger than the 
Baby Boomers--approximately 88 million people. They are also the most 
educated and racially diverse generation in U.S. history.
    But Millennials face significant challenges--in many ways far 
greater than those experienced by the Boomers. Millennials generally 
have higher rates of unemployment, lower incomes and more student debt. 
Many Millennials have had no choice but to delay getting married, 
buying a home and saving for retirement.
                 lasting effects of bush-era recession
    These challenges were greatly magnified by the Bush-era ``Great 
Recession.'' The recession was an economic catastrophe that deeply hurt 
many Millennials and will have a lasting impact on them.
                 the recovery has benefited millennials
    We have come a long way since the darkest days of the recession. 
The economy continues to recover, the overall unemployment rate has 
been cut in half, and businesses have added jobs for 68 consecutive 
months, the longest streak on record.
    Millennials have benefited substantially from this recovery. 
Unemployment is down and wages are beginning to move up. This year's 
college graduates will likely enter the best job market in years.
       millennials fare poorly in comparison to the baby boomers
    Yet significant problems remain.
    It is useful to compare what Millennials are experiencing today to 
what the Baby Boomers experienced a generation ago.
                               education
    Many Baby Boomers with only a high school education could afford to 
buy a house, raise a family, save for retirement and pass something on 
to their kids. But most Millennials will need a college degree to come 
close to matching that success--and will struggle longer to achieve it.
                             student loans
    The question is how to pay for it.
    The real median income for those households headed by a 25- to 34-
year old has fallen by nearly 10 percent in the past 15 years.
    So more young people have been forced to borrow money to go to 
college. The share of households headed by someone under age 35 with 
student loan debt has more than doubled since 1989.
    And they borrow more money too--with median debt tripling during 
the same period. Some Millennials will end up paying back loans well 
into their 30s, 40s and even 50s.
                       homeownership and housing
    And because so many Millennials leave college with student debt, 
they don't have the money for a down payment for a first home. 
Homeownership for those under 35 years old has declined and is now 
about 2 percentage points below its average in 1994.
    Young people are even returning home to live with their parents. 
The Pew Research Center finds that a larger share of women 18 to 34 
years old are living at home (36 percent) than at any time since 1940, 
when these statistics were first collected. And the share of men is 
even higher.
                    policies to support millennials
    I hope we can use the hearing today to not only understand the 
scope of these problems but to also focus on solutions.
    For guidance, let's look at the first rule of medicine--do no harm.
    Let's start with education. Should we force students to rely on 
private student loans that are more costly and come with fewer consumer 
protections? No--the truth is that Millennials cannot afford it.
    What about government spending? Should we slash spending so we have 
a smaller government that provides fewer services? Fifty-three percent 
of Millennials oppose that approach.
    Let's turn to health care. Thanks to the Affordable Care Act, 
uninsured rates for younger Millennials have been cut in half, as those 
under the age of 26 are now able to stay on their parents' plans as 
well as utilize exchanges across the country. Should we cave to efforts 
to repeal the health care law? Of course not.
    Millennials make up approximately seven in 10 workers who earn at 
or below the minimum wage. Should we allow the right wing to block 
efforts to increase the minimum wage? Clearly, no.
    Should we privatize Social Security? No, instead let's come 
together to pass modest measures to make sure that it will be strong 
when Millennials need it.
    Should we roll back consumer financial protections that help 
protect Millennials from predatory practices? Some call this ``cutting 
red tape.'' I call it dangerous.
    But it's not enough to block destructive actions that hurt 
Millennials. We must focus on targeted actions that will help them.
    I will mention only a few.
    We need to make college more affordable by strengthening federal 
and state support for higher education, making tuition free at 
community colleges and increasing investments in Pell Grants.
    We need family friendly policies so Millennial parents can make a 
living and raise their kids.
    Let's repair our Nation's roads and bridges to lay the groundwork 
for a stronger economy. If we don't do it now, Millennials will pay a 
very steep price down the road.
    And let's not ignore what will perhaps be the greatest challenge of 
our time--climate change. We must fight those who claim that climate 
change is a ``hoax.'' Failing to address climate change would leave an 
unimaginable burden on Millennials and future generations.
                               conclusion
    The challenges facing Millennials are real, but the solutions 
exist. Our job is to help chart the course forward.
    Let me close by saying that it's wonderful to have on our panel a 
colleague from the House and member of the New York delegation. Elise, 
welcome. I look forward to your perspective and to the testimony of 
each of our witnesses today.
                               __________
                               [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                               
       Questions for the Record for Mr. Jared Meyer Submitted by 
                  Representative Maloney and Responses
    Mr. Meyer, you testified that average household wealth for a 
household headed by someone 65 or older is about 50 times the average 
wealth of a household headed by someone 35 or younger. You also noted 
this is a significant increase from the mid-1980s, when senior citizens 
held only 10 times the wealth of younger households. Those are 
staggering numbers.
    It seems intuitive that older households will have accumulated much 
greater home equity than younger households. How do the wealth ratios 
change if home equity is excluded?

    In 2011, excluding home equity, the median net worth of households 
headed by an adult under the age of 35 was $4,151. In that same year, 
excluding home equity, the median net worth of households headed by 
someone 65 years and over was $27,322. Looking at recent retirees (65 
to 69 years old), the median net worth excluding home equity was 
$43,921.

    I'm also curious if the ratios have changed as the economy has 
recovered and Millennials have added to their wealth. What do the most 
recent data show?

    The most recent Census data are from 2011. In that year, households 
headed by an adult under the age of 35 had a median net worth of 
$6,682, and households headed by someone 65 years or over had a median 
net worth of $171,135. The median wealth levels for all age brackets 
increased from 2009 to 2011, but the level for households headed by 
someone under the age of 35 increased by nearly 100 percent. Still, the 
ratio between young and elderly households was 1:26 in 2011, compared 
to 1:10 in 1984.

    We discussed the challenges for Millennials of being saddled with a 
growing national debt. But there are other types of debt that get 
passed on from one generation to the next, which impose real costs on 
young people. For example, doing nothing about roads that are falling 
apart and bridges that are falling down assigns enormous costs to 
future generations. Putting off needed infrastructure maintenance is 
both risky and costly.
    In your view, what are the costs of delaying investments in 
crumbling infrastructure? Who is likely to absorb those costs? How does 
failing infrastructure affect our economy and U.S. competitiveness?

    While it is uncontroversial that America's federal, state, and 
local infrastructure needs improved maintenance, some estimates of the 
problem are overstated. For example, the American Society of Civil 
Engineers givers the United States on a whole a ``D\+\'' for its 
overall infrastructure. It also designates 11 percent of U.S. bridges 
as ``structurally deficient.'' Though this term sounds dangerous, it 
does not mean that there is any particular risk of failure. It is not 
surprising that an organization of civil engineers desires $3.6 
trillion of spending on infrastructure projects by 2020. Standing in 
contrast to these findings are those of the World Bank. In 2014, The 
United States ranked fifth in the world for the quality of trade and 
transportation related infrastructure, behind only Germany, Singapore, 
the Netherlands, and Norway.
    Cost overruns for publically funded transportation projects 
contribute to declines in the quality of America's infrastructure. 
According to Bent Flyvbjerg, Mette Kamris Holm, and Soren Buhl, the 
average cost overrun for large public transportation projects is nearly 
28 percent. Since there are limited funds to spend on infrastructure 
improvements, it is important for policymakers to ensure that the cost 
estimates are more accurate and are provided under a wider range of 
assumptions.
    The cost of infrastructure projects should also more closely align 
with the users. Technology has made tolls much more efficient, and 
express lanes that charge higher fares during times of high congestion 
are another solution to funding challenges. Additionally, with 
increased access to low-cost airfares, it makes little sense for train 
routes to remain subsidized, especially Amtrak's long-distance routes. 
Shifting the burden of paying for projects from taxpayers to users 
would create incentives for funding projects that make economic sense.

    What should policymakers do to ensure that Millennials don't get 
stuck picking up the bill for infrastructure investments that our 
country should be making now?

    Moving a greater portion of infrastructure funding and spending to 
the state level or private sector would be a welcome step towards 
maintaining America's transportation system. The problems with 
federally-funded infrastructure investment are shown by the Highway 
Trust Fund. The federal gas tax has stayed at 18.4 cents since 1993. 
This has not kept pace with inflation, and increased fuel efficiency 
means that vehicles are driving more miles for each dollar paid in 
taxes. As vehicles continue to become more fuel efficient, state-level 
actions to move towards a vehicle miles traveled tax, such as the pilot 
program seen in Oregon, can help to sustain transportation funding.
    The Davis-Bacon Act is an 84-year-old law that makes the cost of 
federally funded infrastructure projects more expensive. The prevailing 
wage requirement also prices lower-skilled construction workers out of 
federally-funded projects in some highly unionized areas. To fund 
infrastructure maintenance and improvement at a reasonable cost, the 
Davis-Bacon Act's prevailing wage requirements should be reevaluated.

    You testified about occupational licensing and some of the 
challenges associated with different licensing requirements across 
states as well as the fact that some professions, such as interior 
designers and tour guides, are licensed in some states, but perhaps 
don't need to be. You lauded President Obama's effort to support states 
that introduce common-sense reforms of their occupational licensing 
practices. Varying licensing requirements in different states and the 
lack of transferability across states can be especially costly for 
those who move regularly because of a spouse's or partner's job.
    Can you point to research that analyzes the economic costs of 
states' occupational licensing? Are you aware of research that analyzes 
the impact of licensing on entrepreneurship?

    Some of the best research on the economic effects of occupational 
licensing has been done by University of Minnesota economics professor 
Morris Kleiner. He also offers useful solutions to scale back 
occupational licensing laws. Below are some of his articles that I have 
found helpful.

    Morris M. Kleiner and Alan B. Krueger, ``Analyzing the Extent and 
Influence of Occupational Licensing on the Labor Market,'' Journal of 
Labor Economics 31, no. 2 (April 2013), pp. 173-202.
    Morris M. Kleiner, ``Reforming Occupational Licensing Policies,'' 
The Brookings Institution, January 2015.

    As for the effect on small business owners, Thumbtack.com, in 
partnership with the Kauffman Foundation, releases an annual survey of 
small business owners. Licensing requirements were the most important 
issues in determining a state's overall friendliness to small 
businesses.

    Jon Lieber and Sander Daniels, ``2015 Thumbtack.com Small Business 
Friendliness Survey: Methodology & Analysis,'' Thumback.com, June 2015, 
(email Jon Lieber at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d676263236164686f687f4d796578606f796c6e66236e6260">[email&#160;protected]</a> for a copy of the paper).

    To understand the scope and scale of licensing on a state-by-state 
level, the best resource is The Institute for Justice's License to Work 
report. The report shows which states license 102 low- or moderate-
income occupations, along with the average monetary and time burdens 
each license requires.

    Dick M. Carpenter II et al., ``License to Work: A National Study of 
Burdens from Occupational Licensing,'' Institute for Justice, May 2012, 
p. 16.

    Do you agree with Representative Beyer's statement that excessive 
licensing and other regulations often result from the efforts of 
businesses trying to gain advantage over their competitors? What should 
be done at the state or federal level to limit the impact of businesses 
seeking competitive advantage through the licensing process?

    Yes, I agree that many regulations are passed because large, 
established businesses want to raise barriers to entry and reduce 
competitive threats. Since occupational licensing and many other anti-
competitive regulations are a state and local issue, there is not much 
the federal government (outside of the judicial branch) can do 
directly. However, offering incentives to states that institute common-
sense licensing reforms, as President Obama has proposed, is a welcome 
start.
                               __________
 Questions for the Record for Ms. Jennifer Mishory from Congresswoman 
           Carolyn B. Maloney, Ranking Member, and Responses
    Ms. Mishory, with states cutting support for higher education, too 
many students have been forced to take on too much debt. As you stated 
in your testimony, almost 70 percent of graduates of public and 
nonprofit colleges in 2014 had student debt, and that debt averaged 
about $29,000. I'd like to get your thoughts on proposals to make 
higher education more affordable.

    <bullet>  What impact would restricting access to federal student 
loans have on Millennials?
    <bullet>  How about cuts to Pell Grants?
    <bullet>  What would be the impact of increasing the market share 
of private student loans?
    <bullet>  How do consumer protections differ between federal and 
private student loans?

    The Federal Direct Loan program is an essential tool to ensure that 
Millennials have access to institutions of higher education, and 
restricting access to that program would damage Millennials' ability to 
pursue the credentials they need to succeed in a 21st century economy. 
Millions of young people rely upon loans to complete the financial aid 
package they need to attend school, as evidenced by the fact that 71% 
of 2015 bachelor's degree recipients graduated with student loan 
debt.\1\ Limiting access to that assistance for undergraduates is 
likely to have long-term negative consequences on attainment rates and 
the skills gap we face. Loans should always be the final, not first, 
piece of a financial aid package for students, and students should be 
educated about the requirements--but claims that increasing financial 
aid access have driven up tuition lack conclusive evidence, according 
to the non-partisan Congressional Research Service.\2\ Limiting access 
more than we already do would cut off opportunities for low- and 
moderate-income college students.
---------------------------------------------------------------------------
    \1\ Jeffrey Sparshott, ``Congratulations, Class of 2015. You're the 
Most Indebted Ever (For Now),'' The Wall Street Journal, May 8, 2015, 
http://blogs.wsj.com/economics/2015/05/08/congratulations-class-of-
2015-youre-the-mostindebted-ever-for-now/.
    \2\ ``No Causal Link between Federal Student Aid and Higher 
Tuition,'' The Institute for College Access and Success, October 8, 
2015, http://ticas.org/sites/default/files/pdf/
no_causal_link_between_federal_student_aid_and_higher_tuition.pdf.
---------------------------------------------------------------------------
    Even more important for low-income students is access to Pell 
Grants, a program that has made college possible for millions of 
Americans without requiring young people to take on debt.\3\ Pell 
increases college enrollment among low- and middle-income students, and 
a majority of African-American and Hispanic undergraduates rely on Pell 
to go to school.\4\ Despite a proven track record of success, the 
purchasing power of Pell has declined over time as college has become 
more expensive, making it vital that we scale investments in the 
program to ensure low- and middle-income students can begin and 
complete their degrees.\5\
---------------------------------------------------------------------------
    \3\ ``U.S. Department of Education, ``Fiscal Year 2016 Budget 
Request: Student Financial Assistance.'' http://1.usa.gov/1E8G0Mv. Page 
Q-20.
    \4\ ``Pell Grants Help Keep College Affordable for Millions of 
Americans, The Institute for College Access and Success, March 13, 
2015, http://ticas.org/sites/default/files/pub_files/overall_pell_one-
pager.pdf.
    \5\ Ibid.
---------------------------------------------------------------------------
    The result of restricting Pell grant or student loan access could 
be cutting off access to higher education for some students and also to 
increase reliance on private student loans, since they would be the 
lender of last resort for many young people trying to access or remain 
in school.\6\ This would add complexity to a system that already offers 
several types of loans and aid that students have trouble discerning 
among, and move students into private markets that charge higher 
interest rates than federal loans, raising debt levels. Moreover, 
private loans routinely lack essential consumer protections like 
deferment, forbearance, and income-based repayment plans with 
forgiveness options, which are essential to providing relief on 
payments when a borrower's earning power is low.\7\
---------------------------------------------------------------------------
    \6\ Lucy Lazarony, ``Private Student Loans: What to Watch Out 
For,'' Credit.com, August 24, 2010, https://www.credit.com/loans/
student-loans/student-articles/private-student-loans-what-to-watch-out-
for/.
    \7\ ``Federal vs. Private Loans'' Young Invincibles, October 2, 
2012, http://younginvincibles.org/federal-vs-private-student-loans/.

    Since 2010, Millennials have been able to remain on their parents' 
health insurance until they turn 26 years old. Before the Affordable 
Care Act (ACA), young adults would often lose coverage when they turned 
19 or finished college. The uninsured rate among individuals ages 19 to 
25 has been cut in half since passage of the ACA. In other words, a 
---------------------------------------------------------------------------
larger share of Millennials now have health care coverage.

    <bullet>  What are some of the benefits of a greater percentage of 
Millennials being insured? Does this have an impact on their health? On 
overall health care costs? Have you heard directly from Millennials on 
how the ACA has helped them--if so, please share a few examples.
    <bullet>  Have we also seen a reduction in job lock for 
Millennials--where Millennials are able to switch jobs without being 
worried about losing health insurance? How can this affect their 
careers and future success?

    Higher insurance rates among young people boost the long-term 
health of this generation and help protect us from financial pitfalls. 
Young people need access to affordable health care services: about 15 
percent of young adults have chronic conditions,\8\ young women in 
particular need access to preventive care, and 19 percent of 
Millennials have reported suffering from depression, making access to 
mental services particularly important.\9\ Insurance coverage protects 
against high out of pocket costs when accessing this care, and 
encourages young people to proactively seek these services when they 
need them. And new ACA-compliant plans are required to offer both 
mental health services and preventive care. As a result, the ultimate 
impact on increasing insurance rates on the health of this generation 
could be enormous.
---------------------------------------------------------------------------
    \8\ Sara R. Collins, Elise Gould, Bisundev Mahato, Jennifer L. 
Nicholson, Sheila D. Rustgi, and Cathy Schoen, ``Rite of Passage? Why 
Young Adults Become Uninsured and How New Policies Can Help, 2009 
Update,'' The Commonwealth Fund, vol. 64 (August 2009). http://
www.commonwealthfund.org//media/Files/Publications/Issue%20Brief/2009/
Aug/1310_nicholson_rite_of_passage_2009.pdf.
    \9\ Michelle Castillo, ``Millennials are the most stressed 
generation, survey finds,'' CBS News, February 11, 2013, http://
www.cbsnews.com/news/millennials-are-the-most-stressed-generation-
survey-finds/.
---------------------------------------------------------------------------
    But insurance also protects against even larger potential financial 
calamity. Young people tend to end up in the emergency room more than 
any other age group under the age of 75,\10\ resulting in costs that 
can be devastating. It should not be surprising then that over half of 
uninsured young people say that they have problems with medical bills 
or are paying off medical debt that could have been avoided had they 
had insurance.\11\ Enrollment in plans that cap out of pocket costs 
reduces the number of young people facing these kinds of bills and 
debt.
---------------------------------------------------------------------------
    \10\ Sally H. Adams, Claire D. Brindis, Charles E. Irwin, Tina Paul 
Mulye, M. Jane Park, ``The Health Status of Young Adults in the United 
States,'' Journal of Adolescent Health, no. 39 (2006). http://
smhp.psych.ucla.edu/pdfdocs/healthstatus.pdf.
    \11\ Sara R. Collins, Ruth Robertson, Tracy Garber, Michelle M. 
Doty, ``Young, Uninsured, and in Debt: Why Young Adults Lack Health 
Insurance and How the Affordable Care Act Is Helping,'' The 
Commonwealth Fund, June 2012, http://www.commonwealthfund.org//media/
files/publications/issuebrief/2012/jun/
1604_collins_young_uninsured_in_debt_v4.pdf.
---------------------------------------------------------------------------
    Additionally, research has shown that as many as 1.5 million people 
will be released from job lock and able to work independently due to 
the ACA.\12\ According to the Center on Health Insurance Reforms at 
Georgetown University, the Robert Wood Johnson Foundation, and Urban 
Institute, that figure is primarily because of the non-discrimination 
and financial assistance portions of the law.\13\ Being freed from the 
tether of employer-provided health insurance can allow many Millennials 
who want to start small businesses a way to work toward achieving that 
goal.
---------------------------------------------------------------------------
    \12\ Linda J. Blumberg, Sabrina Corlette, and Kevin Lucia, ``The 
Affordable Care Act: Improving Incentives for Entrepreneurship and 
Self-Employment, Timely Analysis of Immediate Health Policy Issues,'' 
The Center on Health Insurance Reforms, et al., May 2013, http://
www.rwjf.org/content/dam/farm/reports/issue_briefs/2013/rwjf406367.
    \13\ Ibid.
---------------------------------------------------------------------------
    We have seen numerous young people benefit from the ACA in these 
ways. In Austin, Texas, we spoke with Kim D., a young entrepreneur, 
working to start her own marketing firm. Without employer-based 
insurance, Kim didn't have access to affordable health care until the 
ACA. Kim enrolled on the marketplace in the first open enrollment 
period, and was able to continue pursuing her dream without relying on 
health care from her job. Without this kind of freedom, Kim may have 
abandoned her small business for more traditional work--stifling her 
creativity and the boost she brings to the economy. In other cases, we 
have seen the ACA save lives. Hristina R. of DC was constantly denied 
health coverage because of a brain tumor before the ACA. In early 2014, 
she gained health insurance for the first time in years. A mere few 
weeks after getting covered, Hristina started experiencing alarming 
symptoms and decided to head to the emergency room. Hristina had to 
have emergency surgery for an ectopic pregnancy--a condition that could 
have taken her life. Having health insurance not only allowed her the 
ability to seek care, she also avoided a medical bill that could have 
reached as high as $30,000. The financial and health benefits provided 
by the ACA to Millennials like Kim and Hristina have been life 
changing, and emphasize the importance of preserving the law.
                               __________
 Questions for the Record for Mr. Jared Meyer Submitted by Senator Amy 
                        Klobuchar and Responses
                            apprenticeships
    Mr. Meyer, the apprenticeship program in Minnesota--the PIPELINE 
program--is a national model for workforce development and post-
secondary education. This program began by determining standards in 
four high-growth industries--health care, information technology, 
advanced manufacturing and agriculture. The goal of this part of the 
program is to establish standardized and portable credentials that are 
transferable from employer to employer.

    <bullet>  In your testimony you discussed the lack of 
transferability of credentials. How would standardized and transferable 
credentials benefit the workforce and entrepreneurs?

    Due partly to federal student aid (see my testimony ``The 
Unprecedented Debt Burdens Facing Millennials'' submitted to the House 
Budget Committee on September 9, 2015), the cost of four-year college 
has risen drastically. Thankfully, the United States has an extensive 
network of affordable community colleges. As long as the credits gained 
at community colleges are transferable to four-year colleges, students 
have a more affordable path to a bachelor's degree.
    Technical schools also offer promising paths to employment in in-
demand fields. Working with businesses to develop curriculum that 
enables graduates to stay on top of their skills, as Minnesota's 
PIPELINE Project does, is a welcome step towards filling the technical 
skills gap.
    The modern economy is changing rapidly, and skills learned in 
school alone fail to prepare American workers for success. Education 
has always been a life-long process, but it is even more necessary 
today. In addition to partnering with employers to inform curriculum 
and encourage training, accreditation of successful online education 
platforms is another policy solution that deserves attention.
                               __________
Questions for the Record for Ms. Jennifer Mishory Submitted by Senator 
                      Amy Klobuchar and Responses
                           retirement savings
    Ms. Mishory, we have all heard that Americans are not saving enough 
for retirement--that there is a savings crisis. In your testimony, you 
point out that Millennials have saved less at this point in their lives 
than previous generations.

    <bullet>  What policies would help Millennials increase their 
savings rate?
    <bullet>  The increasing burden of student loan debt is hurting the 
ability of many Millennials to save. What other barriers are limiting 
the ability of Millennials to save? How can we address those barriers?

    There are number of factors that seem to be driving the negative 
savings rate \1\ held by Millennials. We have seen lower wealth 
accumulation following wage stagnation and the lasting impact of the 
Great Recession (which hit youth employment levels the hardest).\2\ We 
have also seen a well-documented, staggering increase in the amount of 
student loan debt held by young people today, which means more money is 
going to pay down debt rather than save for the future. And the 
increase in part-time and contract work, including the most recent rise 
in the more flexible ``gig'' economy, has combined with the decline of 
traditional pension and benefit plans to create the need to rethink 
traditional retirement account structures and savings vehicles.\3\
---------------------------------------------------------------------------
    \1\ Josh Zumbrun, ``Younger Generation Faces a Savings Deficit,'' 
The Wall Street Journal, November 9, 2014, http://www.wsj.com/articles/
savings-turn-negative-for-younger-generation-1415572405.
    \2\ Drew DeSilver, ``For most workers, real wages have barely 
budged for decades,'' Pew Research Center, October 9, 2014, http://
www.pewresearch.org/fact-tank/2014/10/09/for-most-workers-real-wages-
have-barely-budged-for-decades/; Derek Thompson, ``Millennials'' $2000 
Poorer Than Their Parents Were at the Same Age,'' The Atlantic, http://
www.theatlantic.com/business/archive/2015/01/young-adults-poorer-less-
employed-and-more-diverse-than-their-parents/385029/.
    \3\ Emily Hong, ``Making It Work: A Closer Look at the Gig 
Economy,'' Pacific Standard, October 23, 2015, http://www.psmag.com/
business-economics/making-it-work-a-closer-look-at-the-gig-economy.
---------------------------------------------------------------------------
    Tackling these challenges is critical. Certainly policies that help 
low- and moderate-income young people build wealth, such as reasonable 
increases to the minimum wage, an expansion of the Earned Income Tax 
Credit to childless individuals under 25 years of age,\4\ or reducing 
barriers to getting a degree in growing fields with growing salaries, 
can all help. Additionally, reducing student debt burdens by expanding 
income-based repayment plans and including tax-free forgiveness, 
increasing uptake in Public Service Loan Forgiveness, and providing 
refinancing options packaged with consumer protections, would all go a 
long way toward freeing up income that could be saved by young people.
---------------------------------------------------------------------------
    \4\ Chuck Marr and Chye-Ching Huang, ``Strengthening the EITC for 
Childless Workers Would Promote Work and Reduce Poverty,'' Center on 
Budget and Policy Priorities, February 20, 2015, http://www.cbpp.org/
research/strengthening-the-eitc-for-childless-workers-would-promote-
work-and-reducepoverty.
---------------------------------------------------------------------------
    We are also at a critical juncture in rethinking workplace 
retirement policies, given the decreased access to benefits and 
changing workplace. Incentivizing businesses to offer tax-free benefit 
plans and contribute to their employees' retirement accounts is a 
start, but other policies to help young people access these options may 
be needed (see below).

    You also noted in your testimony that Millennials have more job 
mobility than previous generations. Recently, the Treasury Department 
launched their myRA plan to help workers who do not have a retirement 
savings plan at their work. This account would move with the worker 
from job to job.

    <bullet>  What are your thoughts on this account? What policies 
would improve these accounts?
    <bullet>  How can we make retirement savings plans more portable?

    MyRA is a welcome foray into the area of portable retirement 
savings. It allows individuals with a relatively low level of income 
and without access to an employer-sponsored retirement plan to put away 
some money when they otherwise may not be saving.\5\ The $25 initial 
deposit and low semi-monthly contribution requirement make savings more 
of a reality, and the flexibility of rolling over those funds into a 
Roth IRA at any time is also a strong feature of the account.\6\ Some 
have suggested future changes such as diversifying investment 
opportunities for higher returns or financial incentives like tax 
credits to get more businesses to sign up and offer myRAs.
---------------------------------------------------------------------------
    \5\ See generally, myRA, https://myra.gov.
    \6\ Ibid.
---------------------------------------------------------------------------
                              gig economy
    Ms. Mishory, in your testimony you note that one of the trends 
we're seeing with the Millennial generation is a shift to part-time, 
temporary and contract-based employment. For some the flexibility of 
moving from ``gig'' to ``gig'' is something they chose. For others, 
this is a result of changing employment patterns.

    <bullet>  With this shift, what policies can we put in place for 
American workers to help with changing employment patterns? How could 
we help workers earn paid sick leave or paid family and medical leave 
in an economy with changing employment patterns?
    <bullet>  What policies would help Millennials save for a rainy day 
or their retirement?

    As individuals continue to pick up part-time, on-demand, ``gig'' 
economy work, it's vital that benefits associated with that work travel 
with them as much as possible. That includes retirement accounts and 
health care benefits as provided by new options like myRA and the 
individual ACA exchanges, but also encouraging employers to offer 
programs of their own for ``gig'' employees. It is also time to review 
how we classify these employees to address the legal uncertainty in the 
market and preserve protections and benefits for workers.
    Paid sick leave and paid family leave are critical policies that 
provide financial stability for young workers, and Young Invincibles 
supports the FAMILY Act and the Healthy Families Act to create these 
policies nationwide. We have also seen innovations on the state level. 
In Rhode Island, New Jersey, and California, paid family leave is 
administered through the state and funded by employees, so individuals 
can access it on their own.\7\ These programs have shown to increase 
economic security for new families, improve health outcomes, and 
benefit businesses through increased employee loyalty and reductions in 
turnover.\8\ Paid sick leave laws have also spread--now to four states 
and 20 cities--and have similar benefits for workers and employers.\9\ 
It is critical that state and federal policy conversations consider 
part-time and contingent workers when pursuing these reforms, and turn 
to employers to ask for financial contributions given the benefits to 
their businesses.
---------------------------------------------------------------------------
    \7\ ``State Family Leave Insurance Laws,'' National Partnership for 
Women and Families, February 2015, http://www.nationalpartnership.org/
research-library/work-family/paid-leave/state-paid-family-leave-
laws.pdf.
    \8\ ``The Family and Medical Insurance Leave Act,'' National 
Partnership for Women and Families, March 2015, http://
www.nationalpartnership.org/research-library/work-family/paid-leave/
family-act-fact-sheet.pdf.
    \9\ ``Paid Sick Days: Good for Business, Good for Workers,'' 
National Partnership for Women and Families, August 2012, http://
www.nationalpartnership.org/research-library/work-family/psd/paid-sick-
days-good-for-business-and-workers.pdf.
---------------------------------------------------------------------------
    There are also increasing state-level innovations around retirement 
plan access. For example, in Illinois, by 2017, businesses will be 
required to offer a plan to employees that will be run by the state in 
an investment pool and funded by paycheck withholding.\10\ In 
Washington, a marketplace has been established to facilitate people 
learning about private plans and encouraging small businesses to match 
employee investments in their retirement accounts.\11\ Opportunities 
like these could significantly expand pathways for Millennials to save 
and build wealth, and those reform conversations should also consider 
part-time and contingent workers.
---------------------------------------------------------------------------
    \10\ Tom Anderson, ``Is Your State Getting Into the Retirement 
Business?,'' CNBC, June 9, 2015, http://www.cnbc.com/2015/06/09/is-
your-state-getting-into-the-retirement-business.html.
    \11\ Trent Gillies, ``Retirement Options Dwindle and States Step 
In. But Should They?,'' CNBC, November 8, 2015, http://www.cnbc.com/
2015/11/06/retirement-options-dwindle-and-states-step-in-but-should-
they.html.
---------------------------------------------------------------------------
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
